1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
No. 19-1754
JEFFREY BOUDREAU, as Personal Representative of the Estate of Wendy
Boudreau,
Plaintiff, Appellant,
v.
SHAW'S SUPERMARKETS, INC.,
Defendant, Appellee.
APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MAINE
[Hon. D. Brock Hornby, U.S. District Judge]
Before Howard, Chief Judge, Lynch and Thompson, Circuit Judges.
April 10, 2020
LYNCH, Circuit Judge. On August 19, 2015, Connor MacCalister attacked
and killed Wendy Boudreau with a knife in the ice cream aisle of the Saco, Maine
Shaw’s Supermarket.

Both Wendy Boudreau and MacCalister were regular

customers of the Saco Shaw’s. MacCalister later confessed that she went to Shaw’s
intending to kill someone and chose Wendy Boudreau because she was elderly and
would be unable to fight back.

2a
Two years later, Jeffrey Boudreau, Wendy Boudreau’s husband and the
executor of her estate, sued Shaw’s in federal court asserting wrongful death and
conscious pain and suffering under Maine law. Boudreau asserted that Shaw’s owed
a duty to protect its patrons from foreseeable harm and that MacCalister’s attack was
foreseeable. He further argued that Shaw’s breached this duty by failing adequately
to monitor the store and that this breach was the proximate cause of Wendy
Boudreau’s death. In a separate count, he alleged that Shaw’s’ breach caused Wendy
Boudreau conscious pain and suffering. The district court entered summary judgment
for Shaw’s, concluding that Shaw’s did not owe a duty under Maine wrongful death
law to protect Wendy Boudreau from this attack by MacCalister because it was not
foreseeable. Boudreau v. Shaw's Supermarkets, Inc., No. 2:17-cv-259, 2019 WL
3242051, at *1, *14 (D. Me. July 18, 2019). We affirm.
I.
A.

Facts
We recount the facts in the light most favorable to Boudreau and draw all

reasonable inferences in his favor. Roy v. Correct Care Sols., LLC, 914 F.3d 52, 57
(1st Cir. 2019). 1
1.

The Saco Shaw’s

The Saco Shaw’s is a grocery store located in downtown Saco, Maine that
serves around 15,000 customers per week. 2 It is one of the biggest Shaw’s in Maine.

We describe the testimony and incidents involving MacCalister primarily relied upon by Boudreau.
For additional detail, we refer the reader to the district court’s decision.
2
Shaw’s conceded at the district court that the knowledge of its employees may be treated as its own
knowledge.
1

3a
The Saco Shaw’s served “a very, very diverse clientele with a lot of walkers with
backpacks.”
The store has two front entrances, one on each side of the store. When a
customer enters the store, the produce section is on the far left and the floral
department is on the far right of the store. The ice cream aisle is closer to the side of
the store with the floral department.
The management personnel of the Saco Shaw’s changed several times between
2009 and 2015. John DeRoche was the store manager from 2009 to 2014. An interim
manager served for a few months in mid-2014 until Bryan Goodrich took over as the
manager around November 1, 2014. Goodrich was the Saco Shaw’s manager at the
time of Wendy Boudreau’s murder.
2.

MacCalister’s Interactions with Shaw’s Employees and Customers
Before the August 2015 Attack

Connor MacCalister frequently visited the Saco Shaw’s in the years before the
murder of Wendy Boudreau. DeRoche recalled first seeing MacCalister in the Saco
Shaw's in 2010 or 2011. He stated that the first time he saw her he was “a little
shocked” because of her “really baggy clothes” with a “chain down on her side” and
her “shaved head.” During his time at Shaw’s, DeRoche never saw MacCalister
behave violently, raise her voice, or carrying a weapon at any time inside the Saco
Shaw’s. He had no knowledge of her acting strangely in the Saco community.
On May 24, 2011, more than four years before the murder of Wendy Boudreau,
two customers complained to DeRoche that MacCalister had scared them outside as
they entered the store. MacCalister had been standing outside of Shaw's by the

4a
entrance, smoking discarded cigarettes out of an ashtray and blowing smoke rings
from underneath a hood that partially covered her face. DeRoche promptly went
outside to investigate the complaints, saw MacCalister, and recalled that “it looked
like something out of a scary movie.” DeRoche stated that usually MacCalister “just
looked weird” but on that day “she looked scary” and “frozen.”
DeRoche acted on the complaints by calling the police. He told the police, “can
you tell this person I don't want her here anymore.” The police conveyed to
MacCalister that she was banned from the Saco Shaw’s. The police also told DeRoche
that they had interacted with MacCalister before, that she lived nearby with her
mother, and that “her mother is crazier than she is.” For a year following this
incident, MacCalister was not permitted to shop at the Saco Shaw’s. 3
A year later in mid-2012, MacCalister called DeRoche and asked if she could
return to Shaw’s. DeRoche did not realize MacCalister was the caller until he later
saw her in Shaw’s and asked what she was doing there. MacCalister told DeRoche
that she had called to ask if she could come back. DeRoche told her that she could
return if she did not “cause any problems.”
After the May 2011 incident, DeRoche requested that the Shaw’s Loss
Prevention Department watch MacCalister because she “look[ed] suspicious,” but he
had never heard any complaint that she shoplifted. In response to the request, Loss

Boudreau also relies on several phone calls referenced in the affidavit of a Saco police dispatcher. The
dispatcher stated that "[a]fter MacCalister was banned, [he] took dispatch calls from employees of
Shaw's who noted that MacCalister had returned to the premises and they were concerned." We
understand these calls to be evidence of Shaw's employees enforcing the ban against MacCalister. As
to the several other calls referenced in the record, we agree with the district court's decision to
disregard them because they do not specifically reference MacCalister.

3

5a
Prevention told DeRoche that they had watched her before and she had “never taken
anything.” Loss Prevention continued to watch her “a couple more times” but never
observed her shoplifting. Nor did they observe any other concerning behavior by her.
Warren McCourt, a Shaw’s Asset Protection Specialist, also observed MacCalister
about four or five times between 2012 and 2014. He stated that her behavior never
seemed unusual. McCourt observed MacCalister come into the store, purchase
product, and leave.
After the 2011 smoking incident, there were no further customer complaints to
DeRoche about MacCalister and no observations by Shaw’s employees of MacCalister
engaging in scary or concerning behavior. DeRoche specifically stated that “[n]o one
ever said a word to [him] about feeling uncomfortable with her in the store or being
afraid of her” and that he “didn’t have any fear of [his] safety or any of [his] employees’
safety when she was in the store.”
Goodrich stated that after becoming manager in 2014, “no one ever reported
anything to [him] about MacCalister” and he never saw her behaving strangely.
Adam Veno, Shaw’s assistant store director who started six weeks before the murder,
stated that he never saw MacCalister in the store.
Joan Doyle worked as a cashier at the Saco Shaw’s from 1997 through 2015.
She typically worked midday shifts and estimated that she had seen MacCalister
“probably four times” in the Saco Shaw’s before 2015. When asked what stood out to
her about MacCalister, Doyle stated “[w]hat she was wearing,” which Doyle described
as usually a “camouflage outfit.” Doyle stated that MacCalister was “very quiet, never

6a
said anything” in response to Doyle’s greetings, and that this was “pretty unusual for
customers.” She never heard that MacCalister had bothered a customer. Doyle had
heard rumors that MacCalister shoplifted but never observed this herself. She also
never observed MacCalister act violently or even speak, nor had she ever seen
MacCalister outside of the Saco Shaw’s.
Michelle Schaffer worked for Shaw’s as a customer service representative
beginning in 2011. She estimated that she had seen MacCalister “multiple” times
between 2011 and 2015 and stated that MacCalister came into the store “quite often.”
She described MacCalister as dressing in baggy clothes that were “all black, [with]
big jackets, [a] hood . . . [and] dark, black makeup.” Schaffer stated that MacCalister's
eyes were “big from time to time” and she would “just look at you” in a way that made
Schaffer think that she was “on something.” Sometimes MacCalister came into the
store “shaking.” Schaffer stated that “if somebody saw the same thing that [Schaffer]
saw,” they would think that “something is up with [MacCalister]” but that this was
not “out of the norm” in downtown Saco. She stated that she thought MacCalister’s
appearance and demeanor may have made “some people probably [feel] threatened”
and be “a little bit more on guard” but that she had never witnessed any threatening
behavior by MacCalister. She explained that there were “moments” where she “felt
probably uncomfortable” or “awkward” around MacCalister but that MacCalister
“never did anything directly towards [her].”

7a
Schaffer had heard rumors that MacCalister shoplifted but never observed
MacCalister shoplifting. She had seen MacCalister “a couple times” outside of the
Saco Shaw’s but never saw her behaving strangely. She also never saw MacCalister
with a knife inside the Saco Shaw’s, nor had she ever witnessed MacCalister act
violently or raise her voice.
Brittani Wood worked as a Shaw’s cashier beginning in 2013. In 2015, she
worked shifts during the “late evening[] into the night” and she recalled seeing
MacCalister “[q]uite frequently” at Shaw’s and sometimes “more than once in a day.”
Wood observed MacCalister wearing baggy pants, military clothing, and a backpack
and with a shaved head, which Wood described as “strange.” She never observed
MacCalister carry a weapon, appear angry, or “yell or lunge at another customer.”
Wood had not heard any rumors that MacCalister shoplifted and stated that
MacCalister always bought something when she entered the Saco Shaw’s. In her
interactions with MacCalister, Wood stated that MacCalister “would acknowledge
you were talking to her; but she wouldn’t really, like, speak.” Wood stated that
MacCalister was “quiet” and “shy.” Wood had heard customers make comments such
as “what’s with her or she seems weird” when referring to MacCalister but no
customer ever made a report about MacCalister to Wood.
In the weeks before Wendy Boudreau’s murder, MacCalister had several
interactions with customers at the Saco Shaw’s. These interactions were not reported
to Shaw’s except as we explicitly note, and even then, they were not reports made to
supervisors but verbal comments made to a cashier. The rest of the statements we

8a
describe were only made at depositions after this suit started. First, Debra Surran
stated she went to Shaw’s in June or July 2015 and estimated she was in the store
for about forty-five minutes. While shopping, Surran saw MacCalister at the end of
the aisles she was shopping in three separate times, as if MacCalister were following
her. MacCalister was not going down the aisles and did not have a cart, which Surran
thought was “a little strange.” When Surran went to check out, she noticed that
MacCalister had gotten in line directly behind her. Surran stated that “Connor was
glaring at me, like she really wanted to hurt me” and she looked angry and her jaw
was tight. Surran was scared so she grabbed a nearby cart and placed it between
herself and MacCalister until MacCalister checked out and left the store.
Before leaving, Surran told Michelle Lavoie, the cashier with whom both
MacCalister and Surran checked out, that “there’s something wrong with that girl.”
Lavoie stated “no, no, Connor comes in here all the time. She's fine.” Surran repeated
that “there’s something wrong with her” and whispered to Lavoie that MacCalister
scared her. 4 Surran did not talk to any other Shaw’s employee about the incident.
Lavoie stated that she was familiar with MacCalister and recalled that she had
seen her “occasionally from time to time” in the years before 2015. Lavoie was also
familiar with Surran and stated that she often waited on Surran at Shaw’s. When
asked about the incident, Lavoie could only recall that Surran was “not thrilled with

Surran stated in her affidavit that she “whispered to the cashier . . . that [she] was scared of
MacCalister.” But later at her deposition, she did not include this fact when recounting what
happened. Counsel for Shaw’s asked her if she said anything else to Lavoie and Surran stated, “No.
That was it.” Counsel for Shaw’s confronted Surran with her affidavit and Surran stated, “[i]t’s
basically the same thing, yeah.” Like the district court, we assume favorably to Boudreau that Surran
did whisper to Lavoie that MacCalister scared her.

4

9a
Connor” based on her “interpretation of [Surran’s] body language.” Lavoie explained
that with her regular customers, she “can tell sometimes if they’re having a good day.”
She stated that “with my years of experience, [I think I would have] picked up if
[Surran] was uncomfortable. I didn’t pick up on body language that she was on
defensive.” Lavoie stated that she did not report the incident to a manager because
“it would need something more than just [her] own gut instinct that there was
something more going on.” She explained that:
[i]f I'm not seeing anything out of the norm and I’m not getting anything from the
customer . . . that there was a problem, I’m not going to go any further than what I
normally would, other than to wait on her, check her out, and thank her for shopping
with us.

In early August 2015, Katherine Corriveau rode her bike to the Saco Shaw’s.
She saw MacCalister sitting under a tree at the back entrance to the Shaw’s plaza.
As Corriveau passed, she made eye contact with MacCalister, who was wearing
sunglasses. She stated that she “got the willies” and her “alarm bells went off”
because MacCalister looked “angry,” had a “set jaw,” and stood up as Corriveau
passed. As Corriveau locked up her bike, she saw MacCalister walking with a
“determined gait” toward Shaw’s. Corriveau entered the store and about five minutes
later, she saw MacCalister about ten feet away from her in the ice cream aisle.
Corriveau felt as though MacCalister was following her and “feared for [her] safety”
so she went to another aisle. Within a short time, MacCalister appeared in the same
aisle. Corriveau then went to the produce section and again saw MacCalister.
Corriveau lost track of MacCalister while she finished shopping. She went to check
out after spending about thirty minutes at the most in the store and saw MacCalister

10a
ahead of her at a different register. MacCalister purchased a Coke and left the store.
Corriveau did not tell any Shaw’s employee about the incident.
About a week before the murder, Cindy Belanger, another Shaw’s customer,
noticed MacCalister while waiting in the Shaw’s checkout line. MacCalister was
“laughing and talking” in a group of people on the other side of the store. Belanger
stated that when MacCalister noticed Belanger looking at her, MacCalister turned
her body, put her arms back, and “lunged” at Belanger without moving her feet while
yelling “rah.” Belanger could not hear MacCalister well because she was “too far
away.” The act scared Belanger and she “took it as a threat.” She stated that other
customers saw the gesture, but that no Shaw’s employee seemed to see it. Belanger
checked out, left the store, and did not report the incident to a Shaw’s employee.
3.

MacCalister’s Behavior on the Day of the Attack

On August 19, 2015, MacCalister visited Shaw’s two separate times. Her first
visit was around 12:00 p.m. and did not provide cause for concern to Shaw’s. She wore
army fatigues, sunglasses, and a backpack, and she did not use a shopping cart. She
checked out with Doyle and purchased a gallon of milk and a couple of other items.
Doyle stated that MacCalister “kind of gave [her] a little smirk when [she] was
handing her the receipt” but that she “didn’t think too much of it at the time.”
MacCalister left the store and sat on the ground, almost on the automatic door sensor,
for about five minutes. There is no evidence any Shaw’s employee observed this
behavior.

11a
Around 3:00 p.m., Wendy Boudreau entered Shaw’s, as did MacCalister for the
second time that day. Two Saco EMTs, Jerry and Armand Beaulieu, were shopping
in the store at this time. Armand stated that he and MacCalister “passed each other
in the same area a couple of times.” He did not “think anything different” about her
behavior and stated that she appeared to be shopping. Jerry described MacCalister’s
behavior as “walking the back row, like she was looking for something . . . she kept
going back and forth.” He stated that she did not look angry, just that “she was in a
hurry, looking for something.” 5
About ten minutes after 3:00 p.m., MacCalister approached Wendy Boudreau,
who was alone in the ice cream aisle. She walked up behind Wendy Boudreau and
stabbed her multiple times. Wendy Boudreau screamed and that caught the attention
of another customer, who pinned MacCalister to the ground. A Shaw’s employee who
had also gone to investigate the screams attempted to help Wendy Boudreau. Wendy
Boudreau was transported to a hospital but did not survive.
MacCalister was arrested by the Saco Police and taken to the Saco Police
Department. The police interviewed her around 5:20 p.m. She confessed that she
went to Shaw’s intending to kill someone. She chose Wendy Boudreau because she
was “in the open with no one around [and] couldn’t fight back.” MacCalister stated

Boudreau asserts that two individuals in the security footage of the minutes leading up to the attack
are Shaw's employees. Like the district court, we assume in the plaintiff's favor that these two
individuals were Shaw's employees and so could have observed what the two EMTs observed.

5

12a
that she always carried two knives in her pockets. There is no evidence that the
knives were visible to a Shaw’s employee before the attack. 6
B.

Procedural History of the Litigation
Jeffrey Boudreau filed this lawsuit against Shaw’s as the personal

representative of Wendy Boudreau’s estate in federal court on July 10, 2017, alleging
causes of action for wrongful death and conscious pain and suffering under Maine
law. He alleged that Shaw’s “owed a duty of care to protect its patrons from
foreseeable risks of harm on its premises,” that Shaw’s breached this duty by failing
to “adequate[ly] monitor its premises or use existing security measures to protect
Shaw’s patrons,” and that this breach was the proximate cause of Wendy Boudreau’s
death as well as her pain and suffering.
Shaw’s moved for summary judgment, arguing that Wendy Boudreau’s murder
was not foreseeable because Shaw’s had no reason to foresee that MacCalister would
violently attack another customer. Shaw’s also argued that there was no evidence
that even if Shaw's had watched MacCalister or tried to interact with her, as
Boudreau asserted that it should have, that this would have prevented the attack.
The district court, in a detailed analysis of the undisputed facts, entered
summary judgment for Shaw’s, holding that Shaw’s did not owe a duty to Wendy
Boudreau under Maine law because it was not reasonably foreseeable that
MacCalister was a danger to other customers. See Boudreau, 2019 WL 3242051, at

Boudreau also relies on MacCalister’s medical records, her history with the police, and observations
of her behavior outside of the Saco Shaw’s to support his argument. As the district court correctly
stated, there is no evidence in the record that Shaw’s knew about these facts, or that Shaw’s should
have known any of this information.
6

13a
*1. The district court explained that despite MacCalister's various interactions with
Shaw’s employees and customers, she had never been violent at Shaw’s and had never
displayed her knives at Shaw’s. Id. at *12. Further, Shaw’s had no knowledge, nor
any ability to learn, of MacCalister’s behavior outside of Shaw’s. Id. Concluding there
was no duty under Maine law, the district court did not reach the issue of proximate
cause. Id. at *14-15. Boudreau timely appealed.
II.
We review the district court’s grant of summary judgment de novo. River Farm
Realty Tr. v. Farm Family Cas. Ins. Co., 943 F.3d 27, 36 (1st Cir. 2019). Summary
judgment should be granted when “the movant shows that there is no genuine dispute
as to any material fact and the movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). As a federal court sitting in diversity, we apply Maine
substantive law. See River Farm Realty Tr., 943 F.3d at 36.
A.

Shaw’s Did Not Owe a Duty to Protect Wendy Boudreau from MacCalister
Boudreau argues that the district court erred in holding that Shaw’s did not

owe a duty to protect Wendy Boudreau from harm from MacCalister. He asserts that
he is entitled to a jury trial on this issue, arguing that it is a question of fact. He
further contends that it was foreseeable that MacCalister would harm another
customer, “if only Shaw’s had been paying attention.” Finally, he relies on Shaw’s’
purported violation of its own loss prevention policies to argue that Shaw’s owed, and
breached, a duty to Wendy Boudreau. We address each argument in turn and
conclude that each fails.

14a

First, Boudreau’s argument that he is entitled to a jury trial on the issue of
duty fails. “Even though the issue is fact driven, the question of duty is a legal
question decided by the court, not the jury.” Brown v. Delta Tau Delta, 118 A.3d 789,
791 (Me. 2015). Boudreau confuses the issue of whether Shaw’s owed Wendy
Boudreau the duty alleged with whether, assuming such a duty existed, Shaw’s
breached that duty. The issue of breach is a question of fact, Lewis v. Knowlton, 688
A.2d 912, 914 (Me. 1997), but whether a duty exists in the first place is a question of
law that we may resolve at summary judgment, see Denman v. Peoples Heritage
Bank, Inc., 704 A.2d 411, 413 (Me. 1998) (affirming no duty holding on summary
judgment in premises liability case).
We turn to Boudreau’s primary argument on appeal: that Shaw’s owed Wendy
Boudreau a duty because MacCalister’s attack was foreseeable. Under Maine law, for
“[a] proprietor of an inn, hotel, motel, restaurant, or similar establishment [to be]
liable for an assault upon a guest or patron by another guest, patron, or third person,”
the proprietor must “[have] reason to anticipate such assault.” Kaechele v. Kenyon
Oil Co., 747 A.2d 167, 170 (Me. 2000) (quoting Brewer v. Roosevelt Motor Lodge, 295
A.2d 647, 651 (Me. 1972)). “A proprietor must guard its patrons against not only
known dangers but also those which it ‘should reasonably anticipate.’” Id. at 171
(quoting Brewer, 295 A.2d at 651). The defendant need not be able to foresee “the
exact nature of the injury which in fact occurred . . . if some harm was reasonably
foreseeable under the circumstances.” Schultz v. Gould Acad., 332 A.2d 368, 370 (Me.

15a
1975). So, the question here is whether Shaw’s “[knew], or should . . . have
anticipated, that [MacCalister] would assault a patron on the evening in question.”
Kaechele, 747 A.2d at 171.
We agree with the district court’s conclusion that Maine’s law of premises
liability is clear that the harm must have been foreseeable. Because we conclude that
MacCalister’s attack was not foreseeable, we need not address the policy element of
Maine’s duty analysis. See Brown, 118 A.3d at 792 (stating that the duty analysis “is
a multi-factored analysis that necessarily evokes policy-based considerations”).
Kaechele does not support Boudreau’s argument that MacCalister’s attack on
Wendy Boudreau was foreseeable. In Kaechele, the plaintiff presented evidence to
show that his assault by another customer of the same convenience store was
foreseeable. Kaechele, 747 A.2d at 169. Before the assault, store employees observed
the attacker yell obscenities for fifteen minutes, slam the store door, and pound on
the store window. Id. Another individual in the store suggested the police be called
but no call was made. Id. The Maine Supreme Judicial Court concluded that these
facts sufficiently established that the attack was foreseeable. Id. at 173.
There is no such evidence here. Shaw’s first observed MacCalister in early 2010
or 2011, more than four years before the murder. In May 2011, two customers
complained about MacCalister because she was standing outside of the Saco Shaw’s
smoking discarded cigarettes. Shaw’s promptly called the police and had MacCalister
removed from the store premises. The police barred MacCalister from the Shaw’s and
told Shaw’s that they had interacted with her before but provided no further details.

16a

During MacCalister's ban, Shaw’s employees called the Saco police to enforce
the ban against her. After MacCalister returned from the ban in 2012, DeRoche
requested that Loss Prevention watch MacCalister to ensure that she was not
shoplifting. McCourt observed MacCalister four or five times between 2012 and 2014
and never observed her acting strangely or shoplifting. Other employees had also
heard rumors MacCalister shoplifted but they never saw her shoplifting either.
Between 2010 and 2015, Shaw’s employees observed MacCalister in the Saco Shaw’s
wearing baggy, black or camouflage clothing and with a shaved head. She rarely
spoke to them and they described her as “weird,” “strange,” “quiet,” and “shy.”
Schaffer recalled that MacCalister sometimes exhibited “big” eyes. She thought that
MacCalister’s appearance and demeanor might make some people feel “threatened”
but she had only felt “uncomfortable” or “awkward.” In 2015, Wood had heard
customers make comments such as “what’s with her” and “she seems weird.” In June
or July 2015, Surran told Lavoie that “something’s wrong with [MacCalister]” and
that she was scared of MacCalister.
On the day of the murder, August 19, 2015, MacCalister entered Shaw’s twice.
The first time, she purchased several items, gave Doyle a “smirk” while checking out,
and then sat for five minutes nearly on the automatic door sensor. She then returned
to Shaw’s three hours later and walked back and forth in the aisles.

17a
These facts did not make it foreseeable that MacCalister posed a danger to
other customers. As to the smoking incident, Shaw's acted promptly in seeking police
help to deal with the situation. Further, this incident occurred four years before the
murder and there was no intervening concerning behavior from MacCalister between
that incident and the summer of 2015.
The only other information provided to Shaw’s about MacCalister by a
customer was Surran’s statement to Lavoie, a cashier, in June or July 2015. Surran
told Lavoie that “something’s wrong” with MacCalister and that MacCalister scared
her. But Surran did not report MacCalister's actions to a supervisor, she did not
request that the store do anything about the incident, and she did not provide Lavoie
with any particulars about what MacCalister had done. People are scared of many
things short of violent physical attacks. Further, Lavoie was familiar with both
Surran and MacCalister and explained that based on her experience as a cashier, she
would have picked up on the fact that a customer was uncomfortable or defensive.
But here she did not. These facts did not make MacCalister's attack foreseeable.
Indeed, no Shaw’s employee ever saw MacCalister act violently, raise her voice,
or threaten someone in the Saco Shaw’s. Nor was Shaw’s aware of MacCalister’s
behavior outside of Shaw’s. The fact that MacCalister’s appearance was perceived as
“strange,” that Schaffer felt “awkward” or “uncomfortable” around her, and that
MacCalister rarely responded when spoken to did not make her violent attack on
another customer foreseeable. Weird clothing and affect were not uncommon among
the store’s many customers.

18a

As to shoplifting, Shaw’s investigated and saw none, so shoplifting provides no
basis for any theory that violent behavior is associated with shoplifting. And since
there was no evidence of shoplifting, that provides no basis for any theory of an
obligation to do continuous surveillance.
MacCalister’s actions on the day of the murder also do not establish that it was
foreseeable that she was a danger to other customers. The fact that she gave a “smirk”
to the cashier and sat in a strange place for five minutes before leaving does not
forecast a violent attack. Further, walking back and forth is not out of the ordinary
in a grocery store.
Even assuming favorably to Boudreau that a Shaw’s employee should have
observed the incidents involving Corriveau and Belanger, neither made it foreseeable
that MacCalister was a danger to other customers. As to the incident with Corriveau,
MacCalister did not threaten, or even speak, to Corriveau. To a reasonable observer,
MacCalister would have appeared to be shopping the Saco Shaw’s by walking across
the store from the ice cream aisle to the produce section. As to the incident with
Belanger, even if Belanger considered the “lunge” to be a threat, MacCalister was
across the entire store and did not get any closer to Belanger. These facts do not make
the violent assault of another customer foreseeable. 7
Boudreau analogizes his case to Mu v. Omni Hotels Management Corp., 882 F.3d 1 (1st Cir. 2018).
But not only does that case apply Rhode Island law, it does not support his theory. Id. at 5. In Mu, the
court reversed a grant of summary judgment to the defendant-hotel, concluding that a jury could find
that the plaintiff’s harm, which was caused by an angry mob on the hotel’s premises, was foreseeable.
Id. at 9-12. The court pointed out that prior to the attack, the mob had been thrown out of the hotel
for causing a disturbance, returned to the hotel the same night, fought among themselves, and then
attempted to fight a passerby by yelling racial slurs, all of which was observed by hotel employees. Id.
7

19a

Boudreau seems to argue further that Shaw’s’ internal policies and procedures
for deterring shoplifting gave rise to a legal duty to abide by those policies, and that
the store’s alleged failure to do so constituted a breach of duty. He highlights the fact
that the store’s Loss Prevention Specialist Manual instructs associates to watch
individuals wearing baggy clothing or clothing that is inappropriate for the weather,
individuals who carry backpacks, those who do not have hand baskets or carriages,
and those who linger in the store, even if the suspected shoplifter is never seen
shoplifting. The policy advises associates to “[g]reet customers” and “[o]ffer assistance
to customers” in order to deter shoplifting. Boudreau emphasizes that the manual
states that shoplifters can “create a serious risk for customers and associates” and
“[s]hoplifters may be armed, under the influence of drugs, violent or pose other risks.”
Boudreau’s reliance on Shaw’s’ purported violation of its own loss prevention
policies is misplaced. He has provided no authority for the proposition that the store’s
internal shoplifting policies created a duty under Maine law that the store must
watch every customer suspected of shoplifting to ensure that they do not violently
attack other customers. Maine law is clear that for a duty to be imposed, the harm
must be foreseeable, and here it was not. Further, Shaw’s did watch MacCalister and

at 9-10. Here, MacCalister was never seen acting violently or attempting to start a fight and was
banned from the Saco Shaw’s four years earlier, in contrast to Mu where the attackers were banned
the night of the attack. Id. at 4. Gould v. Taco Bell, 722 P.2d 511 (Kan. 1986), is similarly
distinguishable because the attacker, a patron of Taco Bell who attacked another customer, had been
involved in a similar altercation two weeks earlier. Id. at 514.

20a
there is no basis to think that any deviations from the policy foreseeably would cause
harm to customers. 8
B.

The District Court Did Not Err in How It Viewed the Facts
Boudreau separately argues that the district court failed to resolve genuine

disputes of fact in his favor by disregarding the following facts: that “police
specifically told . . . DeRoche they had a history with” MacCalister, that “employees
of Shaw’s called the Saco PD to report they were concerned about [MacCalister] being
in the store,” that DeRoche’s “scary movie” comment could mean that he believed
MacCalister had a propensity for violence, that Schaffer stated some customers felt
threatened by MacCalister’s demeanor, and that Surran may have told a Shaw’s
cashier that she was “stalked” by MacCalister.
This argument fails. The district court was required to take the record in the
light most favorable to Boudreau but that does not mean that it was required to draw
inferences that lacked factual support. Each fact that Boudreau has singled out as
being inappropriately resolved in the defendant’s favor was accurately recounted by
the district court and based on the record.
First, as to what the police told DeRoche, the district court correctly recounted
that DeRoche stated that the police did not say “anything specific at all” to him about
MacCalister. As to the phone calls involving the Saco police, the district court
appropriately disregarded the calls that were too broad to be tied to MacCalister and
did consider the police dispatcher’s statements about the two calls made by Shaw’s.
As the district court stated, Shaw’s’ loss prevention policies may be relevant to causation. But as
Shaw’s did not owe a duty here, we need not reach this issue.

8

21a
Next, in making the “scary movie” comment, DeRoche made no reference to violence.
So, the district court did not err by stating that no one at Shaw's stated that they
believed MacCalister was violent. Further, the district court did not “overlook”
Schaffer’s comment but rather accurately described how she thought some people
“probably felt threatened” by MacCalister's demeanor and appearance. Finally, the
district court correctly stated that there was no evidence that Surran told Lavoie that
MacCalister “stalked” her.
C.

Evidentiary Issues
1.

The Plaintiff’s Expert Witness

Boudreau argues that “it was reversible error for the district court to overlook
the expert witness opinion of Stephen Melia on summary judgment.” He asserts that
the district court erroneously “drew its own conclusions about [Shaw’s’] obligations in
the field of loss prevention and retail security.” 9
Boudreau mischaracterizes the district court’s treatment of Melia’s expert
opinion. The district court did not draw its own conclusions about the field of retail
security but rather explained that Melia’s opinion about Shaw’s’ purported breach of
retail security protocols was not relevant to the duty analysis under Maine law. As
said, there is no authority for the proposition that a store’s own loss prevention
policies give rise to a duty absent foreseeability.
Boudreau also asserts that “Melia testified that Shaw’s owed a duty to prevent
[MacCalister] from causing harm to customers” and that the district court should
We assume that the evidence considered at summary judgment was admissible as it does not change
our conclusion that Shaw's did not owe Wendy Boudreau a duty.

9

22a
have accepted this conclusion. It is not clear that Melia’s opinion makes such a claim,
as its primary focus seems to be that Shaw’s violated standard retail security
procedures, not that such procedures created a legal duty under Maine law. But even
if Melia’s opinion makes such a claim, Boudreau’s argument would fail because the
presence of duty is a legal question to be resolved by the court, not an expert. NievesVillanueva v. Soto-Rivera, 133 F.3d 92, 99 (1st Cir. 1997).
2.

Spoliation

At the district court, Boudreau moved for sanctions against Shaw’s for
spoliation of evidence consisting of the security camera footage from the store for the
weeks leading up to the murder. 10 He sought “a permissive negative inference, both
on summary judgment and before the jury” about the contents of the footage. The
district court applied Rule 37(e), which states that “upon finding prejudice to another
party from loss of the information, [the court] may order measures no greater than
necessary to cure the prejudice.” Fed. R. Civ. P. 37(e)(1). The district court was
“doubtful there [was] any prejudice” because “[a]t most, the missing video might
[have] provide[d] images of what certain customers say they observed about
MacCalister at Shaw’s before the day of the murder.” The court then stated that it
would “assume that MacCalister was in the store virtually every day, and that she
always dressed the same way and exhibited the same mien . . . [and] that she had
encounters with customers as they describe[d] the encounters” and that this would
“cure[] any prejudice.”
The parties learned of the footage's existence after the 2018 deposition of McCourt. When McCourt
was asked to retrieve the footage, it could not be located.
10

23a

We review the district court’s denial of sanctions for abuse of discretion. See
Sharp v. Hylas Yachts, LLC, 872 F.3d 31, 41-42 (1st Cir. 2017). We see none. The
district court followed the guidance in the advisory committee notes for assessing
prejudice and evaluated the missing video’s importance to the litigation by concluding
that at most, it “might provide images of what certain customers say they observed
about MacCalister.” Further, as the district court stated, even if the video showed
what Boudreau argues it could have shown, summary judgment still would have been
appropriate because the incidents involving Corriveau and Belanger did not make
MacCalister’s attack foreseeable, even if they had been observed by Shaw's
employees. 11

Affirmed.

Boudreau asserts that the video would show “who was telling the truth” in the interaction between
Surran and Lavoie. This argument is meritless because the statements of Surran and Lavoie are not
contradictory.
11

24a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
JEFFREY BOUDREAU, as PR of
the Estate of Wendy Boudreau,
Plaintiff,
v.
SHAW’S SUPERMARKETS, INC.,
Defendant

)
)
)
)
)
)
)
)
)
)

Case No. 2:17-cv-259-DBH

DECISION AND ORDER ON PLAINTIFF’S MOTION FOR SANCTIONS
AND DEFENDANT’S MOTION FOR SUMMARY JUDGMENT
A violent grocery store murder in 2015 generated this civil lawsuit. Without
provocation, one customer murdered another customer in the store’s ice cream aisle
on a summer afternoon. Later that year, the murderer was sentenced to life in
prison. 1 In 2017, the personal representative of the victim’s estate (her husband)
brought this wrongful death lawsuit against the grocery store for negligence, arguing
that the store should have foreseen the danger and taken preventive action. 2 The
defendant moved for summary judgment, and the plaintiff opposed the motion and
moved for sanctions because most of the store video for the days and weeks preceding

See
Maine
Dep’t
of
Corrections,
Prisoner/Probationer
Search,
available
at
https://www1.maine.gov/cgi-bin/online/mdoc/search-and-deposit/detail.pl?mdoc
number1=153612
(last visited July 1, 2019). I take judicial notice of the sentence under Fed. R. Evid. 201(b)(2).
2 Jurisdiction is based upon diversity of citizenship.
1

25a
the murder is missing. After oral argument on June 6, 2019, I deny the motion for
sanctions and grant the motion for summary judgment.
BACKGROUND UNDISPUTED FACTS
Shaw’s operates a grocery store in Saco, Maine. The deceased victim, Wendy
Boudreau, was a regular customer. So was the murderer, Connor MacCalister.
On August 19, 2015, MacCalister brutally murdered Boudreau by slitting her throat
with a knife in the store’s ice cream aisle. MacCalister has said that she selected
Boudreau partly because she was an older woman who would be less able to resist.
Pl.’s Add’l Statement of Mat. Facts (PASMF) at ¶¶ 66-67 (ECF No. 84). Despite the
efforts of store personnel and customers, including two EMTs shopping in the store
at the time, Boudreau did not survive.
MOTION FOR SANCTIONS FOR SPOLIATION
During discovery, the plaintiff requested all the Saco store video showing
MacCalister’s appearance and behavior in Shaw’s in the days and weeks preceding
the murder. The store had 48 motion-activated video cameras that produced
recordings that could be viewed contemporaneously or at a later date. McCourt Dep.
52-53 (ECF No. 56-10). If video from a particular day was not saved, that data was
overridden as the hard drive became full. According to Senior Asset Protection
Specialist Warren McCourt, that occurred about every 3- 4 weeks, such that there
were generally 3-4 weeks of data available at any given time. See McCourt Aff. II
(ECF No. 96-3). In this case, however, Shaw’s has provided video only for the day of

26a
the murder and for some of MacCalister’s transactions two days earlier, 3 but not for
other days and weeks preceding the incident. That missing video is the subject of the
spoliation dispute.
Although earlier cases articulate a federal court’s inherent authority to grant
relief for spoliation of evidence, in 2015 the Federal Rules of Civil Procedure adopted
a major amendment of the spoliation rules for electronically stored information.
Fed. R. Civ. P. 37(e) now occupies the field, to the exclusion of a federal court’s
inherent authority and, for the most part, state law: 4 “New Rule 37(e) . . . forecloses
reliance on inherent authority or state law to determine when certain measures
should be used.” Adv. Comm. Note to 2015 Amendment; Gonzalez-Bermudez v.
Abbott Lab PR Inc., 214 F. Supp. 3d 130, 161 (D.P.R. 2016) (quoting the Advisory
Committee Note).
Rule 37(e) now provides:
If electronically stored information that should have been preserved in
the anticipation or conduct of litigation is lost because a party failed to
take reasonable steps to preserve it, and it cannot be restored or
replaced through additional discovery, the court:
(1) upon finding prejudice to another party from loss of the
information, may order measures no greater than necessary to
cure the prejudice; or
(2) only upon finding that the party acted with the intent to deprive
another party of the information’s use in the litigation may:
(A) presume that the lost information was unfavorable to the
party;

At oral argument I learned that the earlier video was preserved because MacCalister had cash
register receipts in her pocket when she was arrested showing transactions on that earlier day as well
as the cash register line involved.
4 Whether and when there is a duty to preserve remains a decision based on “a common-law duty”
“when litigation is reasonably foreseeable,” and the Rule “does not attempt to create a new duty to
preserve.” Adv. Comm. Note to 2015 Amendment, Fed. R. Civ. P. 37(e).
3

27a
(B) instruct the jury that it may or must presume the information

was unfavorable to the party; or
(C) dismiss the action or enter a default judgment.
According

to

Rule

34(a)(1)(A),

“electronically

stored information”

includes

“photographs [and] . . . images . . . stored in any medium from which information can
be obtained either directly or, if necessary, after translation . . . into a reasonably
usable form.” The 2006 Advisory Committee Note to that Rule subsection says that
the definition “is expansive and includes any type of information that is stored
electronically,” and that “[r]eferences elsewhere in the rules to ‘electronically stored
information’ should be understood to invoke this expansive approach.” Id. Thus,
under the amended Rule, Shaw’s store video is electronically stored information.
At oral argument, I asked the lawyers what I should treat as the record for
purposes of resolving the spoliation motion. What follows reflects what they told me.
Immediately following the murder, Shaw’s preserved for the police that day’s
video of the Saco store showing the victim and MacCalister (but not the actual murder
because no camera covers the ice cream aisle, see McCourt Dep.15:18-21), as well as
MacCalister’s transactions two days earlier. That video has been made available to
the plaintiff. At the outset of the lawsuit and the beginning of discovery, both
parties’ lawyers believed there was no other video. As a result of the 2018 deposition
of the store’s Senior Asset Protection Specialist, however, the parties learned that on
the day of the murder Shaw’s not only transferred the day’s relevant video onto a disk
for the police, but also “physically removed the two hard drives and a black Intellex
box on which the video for the last 30 days or so was stored and set them aside in the

28a
server room 5 at the store.” McCourt Aff. II ¶ 12. McCourt “taped a sign to the Intellex
box, which stated ‘DO NOT TOUCH THIS HARD DRIVE—YOU NEED TO
CONTACT WARREN OR RICK 6 FIRST.’” Id. When asked after his 2018 deposition
“to retrieve the three hard drives that were set aside,” he reported that “two were
nowhere to be found. Although we found the Intellex box, it only contained images
from 2016 and none from 2015, when the murder occurred.” Id. ¶ 13. The lawyers for
both parties confirmed this information. 7 The record does not reveal how this state of
affairs came to be, nor what happened to the hard drives that McCourt originally
preserved. The plaintiff did not pursue further discovery on the topic of the missing
video. 8
At oral argument, I asked the plaintiff’s lawyer what the plaintiff wanted by
way of remedy if I found a Rule violation (her legal memorandum had made varying
requests). The lawyer responded that because at summary judgment I must view the
evidence in the light most favorable to the plaintiff, and because she had proffered
direct witness testimony about how MacCalister behaved in the store, there was no
need at summary judgment to compensate for any prejudice caused by the missing
video. But at trial, where there will be cross- examination and presentation of
conflicting evidence, she wants an instruction about “a permissive inference that

It was also referred to as the “tower net room.” McCourt Dep. at 17:18 (ECF No. 56-10).
Rick DesFosses was the District Loss Prevention/District Asset Protection Manager. See DesFosses
Dep. at 3:23-4:25 (ECF No. 84-19).
7 At oral argument I understood Shaw’s’ lawyer to say that she and the plaintiff’s lawyer were the ones
who discovered that the preserved data covered 2016. See also Tr. of Hearing before Magistrate Judge
Rich on Jan. 3, 2019, at 23 (ECF No. 108) (same). But it does not matter to my decision whether
McCourt or the lawyers discovered that fact first.
8 Further discovery was discussed at a conference with the Magistrate Judge on January 3, 2019. See
Jan. 3, 2019 Tr., note 7, supra, at 34-37.
5
6

29a
essentially whatever’s shown on that video may contradict what Shaw’s is going to
introduce as evidence, minimizing the fact that her behavior was anything that put
them on notice. We would want the jury to infer that.”
I now address the requirements of Rule 37(e).
Duty to Preserve. At oral argument, Shaw’s’ lawyer argued that Shaw’s had
no duty to preserve any video of events before the day of the murder because a civil
lawsuit was not reasonably anticipated after the murder. 9 But in fact Shaw’s did
initially preserve the video, and the record does not disclose when the relevant hard
drive disappeared or was overwritten. For all I know, it could have occurred after the
plaintiff filed this lawsuit. For purposes of the motion I assume that Shaw’s had a
common law duty to preserve the video at the undetermined time it was
destroyed. 10
Under Rule 37(e), if electronically stored information should have been
preserved in anticipation of litigation, but was lost because of the failure to take
reasonable steps to preserve it, and if it cannot be restored or replaced through
additional discovery, the Rule specifies the available relief.
Failure to Take Reasonable Steps to Preserve. Shaw’s initially took
reasonable steps to preserve the video when McCourt set aside the hard drives in the

She referred to a meeting that took place soon after the murder (an EMT called it a “roundtable,”
Armand Beaulieu Dep. at 28 (ECF No. 56-6); see also Jerry Beaulieu Dep. at 26-28 (ECF No. 56- 7)),
where the victim’s family and Shaw’s representatives were present and the plaintiff apparently said
that he didn’t blame Shaw’s. This lawsuit was not filed until July of 2017. (ECF No. 1). The plaintiff
gave Shaw’s notice of his claim in May of 2017. See Def.’s Objection to Pl.’s Am. Mot. Ex. 1 (ECF No.
97-1).
10 The duty to preserve is determined by common law. See Adv. Comm. Note to 2015 Amendment, Fed.
R. Civ. P. 37(e), note 4, supra.
9

30a
tower net room with a sign not to touch them. Was their disappearance thereafter
due to the failure to take reasonable steps to preserve them? I cannot answer that
question on the record the parties presented, but for purposes of the motion I will
assume the answer is yes, because the video was at all times under Shaw’s’ control.
Restore or Replace through Additional Discovery. Can additional
discovery restore or replace the missing video? No, there is no way to restore or
replace the lost electronic data, i.e., the video itself.
Prejudice. Has the plaintiff been prejudiced by the loss of this information?
The Advisory Committee Note specifies that the Rule does not determine whose
burden it is to prove or disprove prejudice, but leaves that decision to the court’s
discretion. Even if I place the burden here on Shaw’s, I am doubtful there is any
prejudice to this plaintiff. Witnesses (staff and customers) can be and were deposed
(here, over twenty, Pl.’s Opp’n to Def.’s Mot. for Summ. J. (Pl.’s Opp’n) at 1 (ECF No.
85)) about what they observed of MacCalister in Shaw’s before the murder. No limits
were placed on such depositions. At most, the missing video might provide images of
what certain customers say they observed about MacCalister at Shaw’s before the
day of the murder. At oral argument I asked the plaintiff’s lawyer what her best-case
scenario would be of what the missing video might reveal, and she said that she
wished she could show the jury MacCalister’s behavior at the checkout lines to rebut
any argument Shaw’s might make that MacCalister was “shy, quiet, childlike,
innocent” rather than “a disturbance or harmful or scary.” For summary judgment
purposes, however, I will assume that MacCalister was in the store virtually every

31a
day, and that she always dressed the same way and exhibited the same mien. I will
also assume that she had encounters with customers as they describe the encounters.
I believe that, under Rule 37(e)(1), that is a measure that cures any prejudice at
summary judgment, and the plaintiff’s lawyer agreed as much at oral argument.
Inference Instruction. Below, I conclude that there will be no trial. But
because the spoliation issue has been fully argued and because this District has not
previously dealt with the amended Rule, I will complete the analysis. If the case were
to go to trial, could the plaintiff obtain the extra curative relief he requests? Any
inference—permissive or mandatory—that there is unfavorable information on the
missing video is available “only upon finding that [Shaw’s] acted with the intent to
deprive [the plaintiff] of the information’s use in the litigation.” Fed. R. Civ. P.
37(e)(2). 11 The plaintiff’s lawyer urged at oral argument that I should infer intent
because someone ignored the sign that McCourt had placed on the hard drives in the
net tower room, thereby making them unavailable. But what the Rule requires is
“intent to deprive another party of the information’s use in the litigation,” which is not
just intentional action but a specific kind of intent. 12 There has been no such showing
here. For all this record shows, some employee might have needed the hard drives
for another purpose and intentionally removed them, but with no intent to prevent
this plaintiff from using the video in this lawsuit. Unlike prejudice, the Advisory

The intent requirement for such an instruction “is consistent with the underlying notion of the
adverse inference─that it is reasonable to presume that the lost information was harmful to the party’s
failure to preserve because the failure to preserve implies that it was unfavorable.” 8B Charles Alan
Wright et al., Federal Practice & Procedure § 2284.2 (3d ed. 2019).
12 See, e.g., Auer v. Minot, 896 F.3d 854, 858 (8th Cir. 2018) (“serious and specific sort of culpability”;
“intentional, bad-faith misconduct”).
11

32a
Committee Note does not discuss whose burden it is to prove or disprove this specific
kind of intent. But the cases generally treat it as the moving party’s burden. Postle
v. Silkroad Tech., Inc., 2019 WL 692944, at **1, 7 (D.N.H. Feb. 19, 2019) (applying
the clear and convincing evidence standard); Jones v. District of Columbia, 314 F.
Supp.3d 36, 52 n.11 (D.D.C. 2018) (burden on the moving party); Alabama Aircraft
Ind., Inc. v. Boeing Co., 319 F.R.D. 730, 744 (N.D. Ala. 2017) (finding intent as to
some ESI, but not as to other ESI because “[a]lthough their loss is inexplicable, there
is insufficient evidence for the court to conclude that there was any nefarious intent
involved”); Marshall v. Dentfirst, P.C., 313 F.R.D. 691, 701 (N.D. Ga. 2016) (burden
on the moving party). I recognize the downside in assigning the burden to the moving
party, because all information about what happened is in the hands of the nonmoving
party. But here, the only intent evidence is evidence of good faith (McCourt’s attempt
to preserve the video), and the plaintiff did not pursue discovery about what
happened to the hard drives thereafter.
I conclude, therefore, that without evidence of Shaw’s’ intent to deprive the
plaintiff of his ability to use the video in this lawsuit, the plaintiff is not entitled to a
jury instruction on inference, mandatory or permissive. If there were a trial, perhaps
I would let the jury hear about what happened to the video, 13 but there would be no
inference instruction.

“[S]ubdivision (e)(2) would not prohibit a court from allowing the parties to present evidence to the
jury concerning the loss and likely relevance of information and instructing the jury that it may
consider that evidence, along with all the other evidence in the case, in making its decision. These
measures, which would not involve instructing a jury it may draw an adverse inference from loss of
information, would be available under subdivision (e)(1) if no greater than necessary to cure prejudice.”
2015 Adv. Comm. Note, Fed. R. Civ. P. 37.
13

33a
MOTION FOR SUMMARY JUDGMENT
On the motion for summary judgment, Maine’s substantive law of premises
liability applies. In broad terms, a grocery store has a duty to guard its customers
against both known dangers and those it should reasonably anticipate, including
third-party violence. I will elaborate further on Maine law after I describe, in the light
most favorable to the plaintiff, the facts as contained in the record. 14
The summary judgment record is huge, consisting of documents, depositions,
affidavits, health care and police records, photographs and video. The record
describes MacCalister’s interactions with her family, health care providers, the
police, and the community, including affidavits and depositions about her observed
conduct on public streets. 15
Through these materials, the plaintiff presents extensive disturbing evidence
of MacCalister’s severe mental health issues and bizarre behavior starting in
her teenage years. Her history includes severe psychosis, hallucinations, homicidal
rage, involuntary commitments, alcohol and drug abuse, multiple drug overdoses,
threatening and violent interactions between MacCalister and other members of the
Saco community (even her own family), carrying and brandishing a knife, delusions,

I refer for the most part, therefore, to the plaintiff’s opposing statement of material facts (POSMF)
and the plaintiff’s additional statement of material facts (PASMF) so long as they are supported by
appropriate record citations, D. Me. Loc. R. 56(c), or the defendant’s statement of material facts
(DSMF) where the plaintiff accepts it or does not properly controvert it, D. Me. Loc.
R. 56(f). I have also quoted directly from the depositions or affidavits on occasion. According to Fed. R.
Civ. P. 56(c)(3), “[t]he court need consider only the cited materials, but it may consider other materials
in the record.” When I have done so, I have checked the plaintiff’s statements of material facts for any
supportable challenges to the materials I have quoted.
15 The history is laid out in extensive detail in PASMF ¶¶ 1-74 (ECF No. 84). The defendant challenges
its admissibility and relevance, but admits the truth of most of it for purposes of the motion for
summary judgment.
14

34a
periodic catatonia, severe paranoia, and repeated involvement with Saco law
enforcement.
The plaintiff argues:
Plaintiff’s Statement of Material Facts provide sufficient evidence from
which a reasonable fact finder could conclude that [MacCalister]’s attack
on Ms. Boudreau was foreseeable given evidence of anti-social behavior,
unusual shopping habits and frightening appearance, loitering, history
of scaring customers, previously being banned from the store,
management’s knowledge of her criminal history and mental health
issues, the public and Shaw’s employees’ general knowledge of her
bizarre behavior on North Street and [the] surrounding area, not to
mention Shaw’s employees’ own inferred fear of [MacCalister] given
their lack of interaction with her in violation of their own policies.
Pl.’s Opp’n at 20. That statement encompasses a large collection of information, not
all of it possessed by or available to Shaw’s. There is no evidence that, before the
murder, Shaw’s had access to MacCalister’s medical or police records 16 or family
interactions; no evidence that other individuals in the community (including the
victim’s family members who observed MacCalister’s behavior in public spaces and
streets outside Shaw’s even on the day of the murder) told Shaw’s what they observed
outside Shaw’s; 17 no evidence that Shaw’s personnel themselves made any of those

In 2011, when store director DeRoche called the police about MacCalister (see more detail in text
and note 20, infra), a police officer told him that some officers had previous interactions with
MacCalister. DeRoche Dep. 64:24-25-65:17 (ECF No. 56-1). But nowhere does the record establish that
Shaw’s knew any specifics about those interactions. The plaintiff agrees that it “is likely true [that
Shaw’s was not aware of [MacCalister’s] medical, criminal, and psychological history].” Pl.’s Response
at 5 (ECF No. 100). But the plaintiff argues that “it is not necessary that Shaw’s knew these things in
order for the evidence to nonetheless have probative value.” Id. However, I focus my attention on what
the evidence shows Shaw’s knew of the danger from MacCalister or should reasonably have
anticipated.
17 This includes, for example, PASMF ¶ 218, Anderberg Aff. (attached as Ex. D to Melia Aff.) ¶¶ 4- 7
(ECF No. 84-17) (referring to strange behavior including MacCalister’s pacing up and down the street
and an incident in which she “walked right up onto my porch and sat down beside my brother [but]
did not speak or make eye contact.”); PASMF ¶¶ 161-62; Wright Aff. at 1-2 (ECF No. 84-16) (referring
to his observations of MacCalister on a bus; I do consider his observations of MacCalister inside
Shaw’s); the deposition of the murder victim’s daughter, Jennifer Boudreau, recounting that her aunt,
16

35a
off-premises observations; and no direct evidence that Shaw’s’ employees were
actually frightened of MacCalister. 18 I consider only the information that the plaintiff
can establish that Shaw’s personnel knew or should have known before the murder
and reasonable inferences that can be drawn from it. 19 I state that evidence in the
light most favorable to the plaintiff.
What Shaw’s Personnel Knew
I turn first to what the record establishes that Shaw’s knew. In 2011, store
director DeRoche learned that customers had complained that MacCalister took
cigarettes out of the ashtray outside the store entrance, smoked them, and looked
scary. See POSMF ¶ 2; PASMF ¶ 238; DeRoche Dep. at 45:8-46:1. When DeRoche
went to observe her, she had a hoodie “kind of cover[ing] her face,” he could see smoke
rings coming out from under the hood and it “looked like something out of a scary

Patti Parisien, observed MacCalister waving a knife on North Street around lunchtime before the
murder, PASMF ¶ 155, Jennifer Boudreau Dep. 27:12-14 (ECF No. 84-12); the deposition of the
victim’s husband Jeffrey Boudreau recounting his observations of MacCalister on North Street, Jeffrey
Boudreau Dep. at 20:13-21:21 (ECF No. 84-12); the deposition of the victim’s son, Jason Boudreau, in
which he refers to MacCalister’s attire during an incident in which she ran out in front of his car, and
another occasion when she was waving a knife on North Street, PASMF ¶ 156, Jason Boudreau Dep.
at 16-20 (ECF No. 84-13). An EMT testified that comments in town about MacCalister were that she
was “just kind of odd, weird.” Armand Beaulieu Dep. at 9 (ECF No. 56-6). A retired Saco police
dispatcher provided an affidavit, PASMF ¶¶ 217-18, saying (among other things) that the police
“received a lot of calls from concerned Saco residents complaining about MacCalister’s behavior or
reporting that she was engaged in suspicious activity” “on an almost daily basis sometimes more than
once a day” “behaving strangely while walking down the street, staring into space, pretending to shoot
people, or getting right up to car/home windows and staring into them,” Steven Boucouvalas Aff. ¶¶ 45 (ECF No. 82-2); that “Saco residents constantly told me and others in the department that we needed
to get ‘that psycho’ (or words to that effect) off the streets,” id. ¶ 7. “Within the Saco police and fire
departments, it was common knowledge that MacCalister carried a knife (or boxcutter). She was also
rumored to have access to firearms.” Id. ¶ 10. The record does not show that Shaw’s had any of this
information I have recounted.
18 In note 23, infra, I discuss the plaintiff’s expert’s opinion that Shaw’s’ employees were afraid and
the plaintiff’s argument that it can be inferred that they were afraid.
19 Shaw’s’ lawyer said at oral argument “I think the store is responsible for what the employees inside
it know.” I therefore treat all Shaw’s’ personnel’s knowledge as Shaw’s’ knowledge.

36a
movie.” Id. ¶¶ 116, 117, 238, 239. DeRoche called the Saco police, learned that the
police had previous unspecified interactions with MacCalister, and banned
MacCalister from the store. PASMF ¶ 27. 20 After a year, she was given permission to
return. Id. ¶ 241. 21 DeRoche asked loss prevention personnel to watch her, and they
did so until 2014. POSMF ¶¶ 16, 28; PASMF ¶¶ 110-11. He did not believe that
MacCalister was violent. DeRoche Dep. 84:15-85:15 (ECF No. 56-1). Bryan Goodrich
succeeded DeRoche as store director in 2014. Def.’s Statement of Material Facts

The plaintiff’s legal memorandum, citing PASMF ¶¶ 238-39, says that the police “specifically put
DeRoche on notice that the Saco PD had a history with CM, who was ‘crazy,’ just like her mother.”
Pl.’s Opp’n at 8. What those cited paragraphs actually say is that “[t]he police told DeRoche, ‘we’ve had
interactions with her before,’ and CM lived with her mother who was ‘crazier than she is.’” Id. ¶ 238
(citing the affidavit of the plaintiff’s expert, Melia). At DeRoche’s deposition, the plaintiff’s lawyer
asked DeRoche if the police “told you we’ve got a history with her,” and he answered, “they didn’t say
anything specific at all. All they said was, yeah, we’re aware of her, we’ve had interactions with her
before.” DeRoche Dep. at 64:24 -65:17 (ECF No. 56-1). He also testified: “I do remember them saying,
we asked her to leave and we’ve had interactions with her before. She lives—and they told me the
street—with her mother. And it was near the store. She lives there with her mother, and her mother
is crazier than she is. That’s the entire thing that I can remember from this police officer. And then
she was gone. Again[,] he may have said they trespassed her. I don’t remember hearing that.” Id. at
46:9-18.
21 In his affidavit, the retired Saco police dispatcher “recall[ed] that MacCalister was banned from
Shaw’s for a period of time when the manager called and asked someone to serve her with a criminal
trespass notice”; after the ban issued, “I took dispatch calls from employees of Shaw’s who noted that
MacCalister had returned to the premises and they were concerned.” Boucouvalas Aff. ¶ 14; PASMF
¶ 221. No dates for these calls were given, but presumably they were during the one-year ban. He also
attached, as Exhibit C to his affidavit, “two dispatch calls to Shaw’s where the subject’s name was not
known,” saying, “It is quite possible that one or both of these calls was about MacCalister, based on
the physical description (male crew cut, fatigue pants, talking to himself, mental issues). Boucouvalas
Aff. Ex. C at 1. In addition, the behavior described on the second page of Exhibit C (smoking and
refusing to move for customers) is exactly the kind of thing MacCalister was doing in 2011 when the
manager of Shaw’s banned her from the store.” Id. ¶ 15. That it is “quite possible” that the calls were
about MacCalister is not enough to make them admissible as evidence that Shaw’s had knowledge of
MacCalister’s behavior or capacity for violence. Moreover, I note that the first incident, December 31,
2012, involved Customer Service Representative Michelle Schaffer, whose deposition was taken in this
case but without reference to the incident. In the dispatch note, it is stated that the person of concern
did not threaten anyone, but that Michelle Schaffer was concerned about a child (approximately 7
years old) the person had on a sled. The presence of a child with MacCalister does not square with any
other description of her in this record. The second call in March of 2013 refers only to “male at entrance
smoking and refusing to move for customers.” I realize that MacCalister was generally recognized as
transgender, living and identifying as a male before the murder, PASMF ¶ 9 n.2, but that dispatch
note of behavior outside a retail store is still far too broad to identify that person as MacCalister.
20

37a
(DSMF) ¶ 32 (ECF No. 56); POSMF ¶ 32; Goodrich Dep. at 19:15-22 (ECF No. 56-9).
He heard no complaints about MacCalister before the murder. DSMF ¶¶ 33-34;
POSMF ¶ 33-34, Goodrich Dep. 35:3-38:5. Adam Veno became the Assistant Store
Director about six weeks before the murder. PASMF ¶ 253. He does not remember
seeing MacCalister in the store. Id. ¶ 259; Veno Dep. at 34:17-19 (ECF No. 84-18).
MacCalister visited Shaw’s virtually daily, sometimes more than once a day.
DSMF ¶ 37; POSMF ¶ 37; see also PASMF ¶ 218 (describing how MacCalister would
walk by a Saco resident’s house on a “daily basis on her way to Shaw’s”); Wood Dep.
at 16:15-16 (ECF No. 56-4). She wore baggy men’s clothing, either black or
camouflage, with a chain on one side, and men’s military boots. Her head was shaved;
her jaw was clenched; she had bulging eyes, an angry-looking face, and offensive Nazi
tattoos on the underside of her arms just above her wrists. 22 POSMF ¶¶ 2, 6;
PASMF ¶ 219. She spoke little and sometimes not at all, even when spoken to
directly. PASMF ¶ 225. She often had a backpack and did not always use a shopping
cart or basket. See POSMF ¶¶ 4, 71; PASMF ¶ 145. When she bought anything, she
usually purchased a small number of items. POSMF ¶ 7. There were unverified
rumors that she sometimes shoplifted. Id.
A customer who saw her once at Shaw’s in the year before the murder described
her: “She did not have a basket, but was walking up and down the aisles with the
They wore a swastika and an SS symbol. Although the store video is blurry, it appears that on the
day of the murder, MacCalister wore her sleeves rolled up, which would reveal the tattoos. I therefore
assume that Shaw’s’ personnel could see them. As previously mentioned, there is also evidence that
she was observed with a large knife on the public streets and even in a psychiatrist’s office, PASMF ¶
53, but there is no evidence that the knife was ever visible inside Shaw’s. See, e.g., Schaffer Dep. at
10:9-12 (ECF No. 56-5).
22

38a
same scary/angry look she always had on her face and in her eyes, dressed in military
fatigues.” PASMF ¶ 161; Thomas Wright Aff. ¶ 8 (using the adjective “same” to
describe her appearance on the bus that both MacCalister and the affiant rode 23)
(ECF No. 84-16).
One cashier, Brittani Leigh Wood, testified that she saw MacCalister in Shaw’s
quite frequently, sometimes more than once a day. Wood Dep. at 16:15- 16; see DSMF
¶ 37; POSMF ¶ 37. Wood described MacCalister as a strange dresser, with a shaved
head, Wood Dep. at 17, but Wood saw no weapon on MacCalister in Shaw’s, id. at 18.
She also did not see MacCalister on North Street, id. at 20, as some members of the
public did. She testified that after MacCalister had gone through the cashier’s line,
customers would say “she’s a little strange or what’s with her, sly remarks,” id. at
21:19-20, or “she seems weird,” id. at 22:14-15. See also POSMF ¶¶ 38-39.
Customer Service Representative Michelle Schaffer testified that MacCalister
sometimes behaved strangely, PASMF ¶ 229; Schaffer Dep. 9:7 (ECF No. 56-5):
Her eyes would be kind of, like, big from time to time, just look at you.
Just look, you know, almost like she was on— not necessarily unaware
of her surroundings; but I think she was just—she gave me the
impression that she might have been on something. And a couple times
she would come in shaking. So—. . . I just felt awkward sometimes, I
guess, around her. But I think it was general consensus, maybe a little
bit, if somebody saw the same thing that I saw, that they might have
been like, okay, she’s—something is up with her. But it’s nothing out of
the norm with downtown Saco today.
The victim’s daughter, Jennifer Boudreau, testified that MacCalister had a very angry look on the
streets, Jennifer Boudreau Dep. at 20:16-17, and walked “like she was on a mission.” Id. Affiant Wright
said: “I never saw MacCalister when she did not look angry, scary and hateful.” Wright Aff. ¶ 4 (ECF
No. 84-16); PASMF ¶ 162. Affiant Wright was in Shaw’s on August 19, 2015, but he did not see
MacCalister until the murder occurred, and he described her then as “look[ing] the same way she
always did.” Wright Aff. ¶ 9.
23

39a
PASMF ¶¶ 228, 230; Schaffer Dep. 9:9-24. 24 Schaffer “had moments where she felt
uncomfortable around” MacCalister, PASMF ¶ 228; Schaffer Dep. at 25:10- 28:14. 25
Schaffer could not recall speaking with her. Schaffer Dep. at 10:15-19. Others told
Schaffer that MacCalister stole, PASMF ¶¶ 233-34, but Schaffer never witnessed it.
Schaffer Dep. at 12:7. The plaintiff’s lawyer asked Schaffer if there was any
conversation with associates, employees or anyone “to the effect that [MacCalister]
was known to have frightening or threatening behavior.” She responded: “I wouldn’t
say she had threatening behavior. I think her appearance to some people probably
felt threatened just by her—the way that she—her demeanor or the way that she
carried herself or the way that she clothed herself. But as for threatening behavior
towards any of us, I don’t think I have ever witnessed that.” Id. at 25:15-21; POSMF
¶ 43. Schaffer had seen MacCalister in Saco outside of Shaw’s “a couple times,” but
never saw her behaving strangely on the street and never saw her with a knife in the
store. Id. at 10:3-12. Schaffer never saw MacCalister act in a violent manner. DSMF
¶ 44; POSMF ¶ 44.
Customer Deb Surran testified about an incident in June or July of 2015,
several weeks before the murder. PASMF ¶ 118-28; Surran Aff. ¶¶ 3, 8 (ECF No. 848). Surran reported that she kept seeing MacCalister at the end of each aisle as she

McCourt testified at his deposition that Schaffer at one time said to him that MacCalister “acted a
little weird,” and he told her to talk to the store director. McCourt Dep. at 15, 37. There is no testimony
in her deposition nor evidence in the record more generally that Schaffer ever did so.
24

DeRoche testified: “I have heard that maybe some people said they felt uncomfortable with her in
the store. That was─I didn’t hear that at the time [2011]. No one ever said a word to me about feeling
uncomfortable with her in the store or being afraid of her. No one said that to me, and no one reported
it to me either.” DeRoche Dep. at 69:17-24.
25

40a
shopped, and that MacCalister had no grocery cart. Surran Dep. at 28:18-24 (ECF
No. 56-14). Surran believed that MacCalister was following her, “as though she was
stalking me.” Surran Aff. ¶ 4. When Surran went to the cashier to check out,
MacCalister was behind her. Because she was afraid, Surran put her shopping cart
between herself and MacCalister and, after checking out, waited behind the cashier
until MacCalister checked out and left the store. Id. ¶¶ 4-7; Lavoie Dep. II at 12:1725 (ECF No. 56-8). Surran spoke to the cashier, Michelle Lavoie, about MacCalister.
At her deposition, Surran stated: “I said to Michelle, there is something wrong with
that woman. There is something wrong with her. And Michelle replied to me, oh, no.
There’s nothing wrong with her. She comes into the store every[]day. And I repeated
myself, Michelle, there’s something wrong with her.” Surran Dep. at 53:1-6. The
lawyer then asked: “Did you say anything else to Michelle about Connor?” Surran
responded: “No. That was it.” Id. at 53:7-9. Later, the lawyer asked: “Did you tell her
I feel really scared, I really need to do something about this?” Surran answered: “No,
I did not.” Id. at 54:1-3. But when Surran was confronted with her earlier affidavit’s
assertion that she whispered to the cashier that MacCalister scared her, she
responded, “It’s basically the same thing, yeah.” Id. at 55:6-12 (referring to Surran
Aff. ¶ 7 (ECF No. 84-8)); see POSMF ¶ 81. The cashier testified that Surran’s
comments “didn’t set off the alarm bells in me” and that she “didn’t pick up on any
distress.” Lavoie Dep. I at 30:24, 32:16-17 (ECF No. 56-3); see also Lavoie Dep. II at
19. The plaintiff’s legal memorandum argues that Surran was scared, but does not
argue that Surran told Lavoie that she was scared, only that she told the cashier

41a
there was “something wrong.” Pl.’s Opp’n at 9. But the plaintiff’s opposing statement
of material facts asserts that Surran did tell the cashier she was scared. POSMF ¶
81. I do not know what to make of Surran’s statement that her affidavit version and
her deposition testimony of what she said to cashier Lavoie are “basically the same
thing.” Surran Dep. at 55:6-12. Treating any ambiguity in the light most favorable to
the plaintiff, however, I assume that Surran did whisper to cashier Lavoie that
MacCalister scared her. But there is no evidence that she mentioned MacCalister’s
“stalking” behavior.
Cashier Joan Doyle saw MacCalister approximately four times in Shaw’s.
Doyle Dep. at 18 (ECF No. 56-2). According to Doyle, MacCalister wore camouflage
and, unlike other customers, made no response to Doyle when Doyle spoke. PASMF
¶ 225; Doyle Dep. at 19. A few hours before the murder, MacCalister shopped in
Shaw’s 26 and purchased a gallon of milk and a few other things. POSMF ¶ 45; Doyle
Dep. at 32. Doyle was the cashier who rang up her items. PASMF ¶ 225. Doyle said
that when she handed MacCalister her receipt, MacCalister gave her a little smirk
or half-smile. POSMF ¶ 47; Doyle Dep. at 34.

The plaintiff’s additional statement of material facts asserts that a video clip of this earlier visit
shows MacCalister “reaching into her pocket and pulling out an object appears to be shaped like a
knife.” PASMF ¶ 154. But the plaintiff then immediately asserts that “it cannot be determined with
any certainty or accuracy whether this was a knife.” Id. ¶ 155. There is no evidence that anyone at
Shaw’s saw MacCalister reaching into her pocket and pulling something out. I therefore do not
consider the incident. The plaintiff adds that a Boudreau relative saw MacCalister running
down North Street waving a knife the day of the murder. Id. But there is no evidence that any Shaw’s
employee was aware of that incident before the murder.
26

42a
Doyle “didn’t think too much of it at the time,” Doyle Dep. at 35, but recalled it
after the murder, PASMF ¶ 47. To Doyle, a “smirk usually means they’ve got
something on their mind,” Doyle Dep. at 34, and Doyle did not think there was
anything unusual about the transaction beyond the smirking. PASMF ¶ 47. After the
murder, Doyle heard rumors that MacCalister shoplifted. Doyle Dep. at 20; see also
PASMF ¶ 251.
Some Shaw’s employees reported comments made about MacCalister after the
murder—that, for example, she engaged in “shoplifting and that she was kind of
creepy,” PASMF ¶ 251 (shoplifting rumors or suspicions reported by Schaffer, Doyle,
Gogos, and McCourt); id. ¶ 160; Gogos Dep. at 23 (ECF No. 84-15) (after the murder
other employees said she was “kind of creepy”). Assistant Store Director Adam Veno
testified that after the murder he heard that “she was rumored to steal.” Veno Dep.
at 44. But no items were ever observed to have been taken. See, e.g., Gogos Dep. at
23; DeRoche Dep. at 86; PASMF ¶ 234.
Those are the things the record shows that Shaw’s’ personnel actually observed
or were told about MacCalister, her appearance, and her behavior.
What Shaw’s Should Reasonably Have Known and Anticipated
As I said earlier, there is no basis to conclude that Shaw’s could have or should
have obtained MacCalister’s medical records or her police records or information
about her interaction with her own family or with the Saco community. I therefore
set that evidence and information aside in assessing what Shaw’s should reasonably
have known and anticipated.

43a
Customer Katie Corriveau testified at deposition that she had seen
MacCalister about three times on North Street, but only once in Shaw’s, and that this
observation occurred “within ten [days] to two weeks before Wendy was killed.”
PASMF ¶ 142; Corriveau Dep. at 19-23 (ECF No. 56-15). Corriveau said that about
10-14 days before the murder, she made eye contact with MacCalister in the parking
lot outside the store, and thereafter MacCalister followed her into the store with an
angry look and a set jaw, and followed her across 2 or 3 aisles. PASMF ¶¶ 146, 14851. That conduct made Corriveau fearful. Id. ¶¶ 144-45. But Corriveau did not report
the incident to anyone at Shaw’s before the murder, or see any reason to report it,
DSMF ¶ 111; POSMF ¶ 111; Corriveau Dep. at 32:12-14; 50:6-51:21. There is no
evidence that Shaw’s’ personnel observed the incident.
Customer Cindy Belanger testified that she was standing in a cashier’s line at
Shaw’s about a week before the murder and staring at a person whom she identified
after the murder (partly from her clothing) as MacCalister. POSMF ¶¶ 129-30,
PASMF ¶ 140. As Belanger described it, the individual was standing with a
“thuggish” group of people across the store. See POSMF ¶ 118. 27 Belanger testified
that the individual, apparently upon becoming aware that she was being stared at,
turned around, POSMF ¶ 120; Belanger Dep. at 27:6-24 (ECF No. 56-16), and

The plaintiff’s additional statement of material facts says that Belanger also said that the group had
been “hanging at Shaw’s for several weeks, so Shaw’s must have been aware of the potential for
trouble,” PASMF ¶ 130 (quoting Belanger Dep. at 7 (ECF No. 56-16)). In fact, that appears to be the
plaintiff’s lawyer reading from a newspaper comment that Belanger wrote in the Portland Press
Herald, see id. at 6. The lawyer asked if she read it correctly and Belanger responded “yeah,” id. at
7:6. There was no further explanation of the “potential for trouble.” If Belanger’s earlier out-of-court
statement is even admissible on this record, it seems to refer to the group’s potential for causing
trouble, which is not the subject of this lawsuit.
27

44a
“lunged” while uttering the word “rah,” id. ¶ 119, but that her feet did not move in
the “lunge,” Dep. at 28: 9-13. Belanger interpreted the incident as a threat. POSMF
¶ 119; Belanger Dep. at 37:23-24. Upon questioning by the plaintiff’s lawyer, the
following interchange took place:
Q. Was the volume of her voice when she did that, was it raised?
A. I couldn’t hear it that good. I knew what she was doing and what she
was saying, but it was too—she was too far away. It was like—you know,
I was at one side of the store. She was clear at the other side of the store,
with several registers in between, you know, so—
Q. And would you say that there were a number of employees of Shaw’s
between where she was when she made that noise and gesture at you
and where you were standing?
A. Yeah. I know other people saw it.
Q. And how do you know that?
A. Their body reaction. But I don’t remember who they were or, you
know, what the circumstances were.
Q. Do you remember seeing an employee of the store react to that
gesture?
A. No.
Belanger Dep. at 37:25-38:19; PASMF ¶ 138. The plaintiff focuses on Belanger’s fear.
See PASMF ¶¶ 129-41. But Belanger did not report the incident to a cashier,
Belanger Dep. at 9:25-10:1, 15:22-24, or anyone else at Shaw’s, DSMF ¶ 125; POSMF
¶ 125; Belanger Dep. at 29-30. Belanger’s account—that she knows other people saw
the incident because of “[t]heir body reaction” but does not remember a store
employee reacting to the gesture—does not show that any Shaw’s employee saw the
threat. 28
The plaintiff’s retail security and loss prevention expert Stephen Melia concluded that some of the
store’s cashiers could likely see MacCalister in this incident, Melia Aff. ¶¶ 132-33, but he never visited
the store to examine the lines of sight, Melia Dep. at 132:1-2 (ECF No. 56-17). PASMF ¶¶ 284-85. The
defendant’s security expert, Jonathan Groussman, did visit the store and looked at sight lines. See
POSMF ¶ 134; Groussman Dep. at 197:10-199:19. He testified that cashiers could not see MacCalister
if she were in the produce section, Groussman Dep. at 196:7-14, but it is not clear that he placed
MacCalister in the location Belanger described. POSMF ¶ 134. (Belanger testified that MacCalister
28

45a
Thus, there is no evidence that Shaw’s knew of the Corriveau or Belanger
incidents. The plaintiff seems to argue that Shaw’s personnel should have
observed those incidents, but the record does not support that conclusion 29 or the
necessary next step that Shaw’s then should reasonably have anticipated that
MacCalister was a danger to other customers.
A post-murder review of the store’s video shows that after her earlier purchase
at Doyle’s station on the day of the murder, MacCalister exited the store and sat for
about five minutes on the ground very close to the door, almost on the automatic door
sensor. PASMF ¶¶ 211-13; Melia Aff. ¶¶ 51, 52 (ECF No. 84-17). This occurred about
three hours before the murder. PASMF ¶ 211; Melia Aff. ¶¶ 51, 52. There is no
evidence that any Shaw’s personnel observed that conduct.
Just before the murder, two EMTs who were shopping at Shaw’s observed
MacCalister in the store. See PASMF ¶¶ 187-88. They recognized her from previous
encounters (not in Shaw’s). Id. One testified that at the time, MacCalister was not
behaving differently from other shoppers. POSMF ¶ 56; Armand Beaulieu Dep. at
28 (ECF No. 56-6). The other had written an earlier witness statement that the
plaintiff’s lawyer obtained from the State Attorney General’s office in its murder

was standing “near” the produce section.) Neither party provided photographs or diagrams of the front
end of the store. But the plaintiff agrees that Melia “admitted that he did not know whether the
cashiers working the checkout lines would have been able to see the interaction between Ms.
MacCalister and Ms. Belanger,” DSMF ¶ 152; POSMF ¶ 152; Melia Dep. at 45:10-14.
According to the plaintiff, the “customer encounters are highly relevant because they serve as
circumstantial evidence allowing a jury to infer that Shaw’s likely saw the same things.” Pl.’s Resp. at
4 (ECF No. 100). But I have no basis beyond supposition and speculation to conclude that any Shaw’s’
employee did see MacCalister’s interactions with Belanger and Corriveau. The plaintiff had full
opportunity through investigation and deposition to gather evidence of what Shaw’s’ employees saw
or didn’t see.
29

46a
investigation. Pl.’s Mot. to Seal ¶ 6 (ECF No. 82). In that written statement he had
said:
On walking over to the meat section is when I first saw the assailant as
she was walking towards me coming from the frozen foods section. She
caught my attention as her demeanor and presentation was different, I
noted her walking by me several times (as if she was pacing) while I was
in the back of the store, she didn’t have a basket or pushing a cart and
wasn’t carrying any groceries but as I thought maybe she hasn’t found
what she [was] looking for yet, Armand [the other EMT] then met up
with me and mentioned he had noticed this same person walking back
and [forth] and mentioned that the fire department had a past with this
person. We then brushed it off . . . .
Statement of Jerry Beaulieu at 148 (ECF 82-3). See also POSMF ¶¶ 53, 56, 58, 59;
PASMF ¶ 187. The plaintiff’s lawyer later questioned him about his statement 30:
Can you describe to me, as she’s walking toward you, what you
observed[?]
A. She was walking in the back part of the store. It was a pretty good
pace, like she was on her way to get something. What struck me is she
was dressed in full army fatigues, which kind of was like, okay. But I
knew, well, that’s Connor.
So then it was just like as soon as I made a connection who that
was, it was like, all right, I just know who she is. She’s—she likes to be
different and that’s who she is. So that—no problem with that.
Q. Meaning you had seen her dressed like that before; is that—
A. She would—she would—I hate to use the word stick out, but she
would like wearing full army fatigues, something like that. Or all
dressed in leather, that kind of thing.
So, you know, when you see her, you knew it was her.
You know, okay, it’s Connor.
...
Q. What did her face look like at the time?
A. Normal. Just—she was wearing sunglasses. She had her ear pods in.
She was listening to music, just walking down the aisle.
...
The admissibility of the earlier written statement is uncertain. I will assume it is admissible under
Fed. R. Evid. 803(5), although it is not clear that the witness “now cannot recall well enough to testify
fully and accurately.” Id.
30

47a
Q. What do you mean by pacing?
A. She was just walking the back row, like she was looking for
something. It’s almost like she couldn’t find the aisle that the food was
in type thing, so she kept going back and forth.
So it just—you know, I just noticed her walk by me several times.
You see people—a lot of people don’t recognize the stuff from the store,
but we tend to be on high alert, so we notice people and their actions
more so than people driving, people in the store, people—and that’s
just one of those things that caught my eye.
Q. It certainly stood out more to you than any other customer—
A. Right[.]
Q. —that was around you at that moment, right?
A. Yeah.
Q. And did you find it odd that she was pacing, but not— didn’t appear
to be carrying a basket or a shopping cart?
A. It caught my eye, but I didn’t think anything of it. It didn’t really—
you know, I didn’t think anything threatening or anything like that.
It was just . . .
Q. Okay. When you say her demeanor was different, what did you mean
by that when you wrote that in your statement?
A. It was just the way she was walking. Like say she was in a hurry.
She was kind of walking fast.
Q. Some people in this case have described that she tended to present
as being angry. Would you agree with that?
A. I didn’t get that. It was more just like she was in a hurry, looking for
something. That’s the best I can describe it.
Jerry Beaulieu Dep. at 13:4-16:8 (ECF No. 56-7).
Although the plaintiff’s expert says that Shaw’s employees should have
observed this behavior by MacCalister in the minutes immediately before the murder
and intervened, 31 PASMF ¶ 188; Melia Aff. ¶ 27, the EMT’s observations of pacing

The plaintiff’s expert believes that the video shows “[w]hat appears to be an employee of the meat
department, in a classic white coat/uniform,” Melia Aff. ¶ 29, in proximity to MacCalister. The expert
refers to him thereafter as “[t]he presumed Shaw’s meat department employee,” id. at ¶ 31, and
concludes that this presumed employee should have made the same observations as the EMTs and
taken action. Shaw’s denies that the figure in a white coat was an employee, points out that he appears
to be wearing shorts and sandals, and asserts that it has a meat department dress code that is
inconsistent with this apparel. Goodrich Aff. ¶ 18 (ECF No. 96- 1). The plaintiff’s expert also perceives
in the video a later crossing of paths between MacCalister and an employee carrying a broom. Aff. ¶¶
34-35. These observations are summarized in PASMF ¶¶ 188-96. The expert states: “Based on the . . .
testimony of [the EMTs] and the details I can see from the photos at Exhibit B, my expert opinion is
31

48a
and the contemporaneous video clips do not support an inference that Shaw’s was
then put on notice that MacCalister posed a danger to another customer, given the
information Shaw’s had about MacCalister’s previous behavior in the store and the
lack of information Shaw’s had about her behavior in Saco outside of Shaw’s.
Combination of What Shaw’s Knew or Should Reasonably Have Known
and Anticipated
In sum, the record viewed most favorably to the plaintiff shows that in 2011
store director DeRoche learned that MacCalister scared customers by her appearance
and her conduct in smoking cigarette butts outside the store entrance. DeRoche
confirmed for himself that she looked scary, and called the Saco police. They told him
that MacCalister had unidentified previous interactions with the Saco police and
characterized her and her mother as “crazy.” She was then banned from the
premises. After a year (i.e., in 2012), she was permitted to resume shopping at
Shaw’s and there were no other incidents until the events of 2015. MacCalister
had a shaved head, wore baggy black or camouflage clothing with a chain, men’s
military boots, and a backpack, and had offensive Nazi tattoos. She shopped regularly
at Shaw’s, buying small quantities of goods, and often did not use a shopping cart or
basket. MacCalister was suspected of shoplifting but was never caught doing so.
Shaw’s’ policies warn employees that people engaged in shoplifting can be violent,

that the employees working for Shaw’s had the same opportunity to take notice of [MacCalister] pacing
in the back of the store. . . . Shaw’s should have noticed this and approached or interacted with
[MacCalister]; if the EMTs had enough time to notice her, then the store’s own employees should have
as well.” Aff. ¶ 27. Although I am doubtful that the plaintiff’s expert is competent to identify these as
Shaw’s’ employees, I will assume for summary judgment purposes that they are Shaw’s’ personnel.

49a
but this murder had nothing to do with shoplifting. MacCalister had an angry face,
bulging eyes, and clenched jaw, looked creepy, exhibited taciturn behavior, was seen
shaking a couple of times, and sometimes appeared as if she were “on” something.
Customers told cashiers words to the effect that something was wrong with her or
that she was strange or weird. One customer service representative sometimes
felt awkward or uncomfortable in her presence but did not witness threatening
behavior. 32 In June or July, customer Surran told cashier Lavoie that she was
frightened of MacCalister and that there was something wrong with her. On the
day of the murder, when MacCalister bought a few items about three hours earlier,
she gave cashier Doyle a smirk or half- smile when Doyle handed her the receipt.
But MacCalister was never physically violent on store premises before the
murder and she never displayed knives in Shaw’s. Shaw’s was unaware of
MacCalister’s behavior in the Saco community. However one interprets the
significance of MacCalister’s pacing just before the murder, and assuming that
Shaw’s personnel saw or should have seen it, there is no basis to conclude that it put
Shaw’s on notice that MacCalister was dangerous. Her smirk or half-smile to cashier
Doyle at checkout a few hours earlier is likewise not enough for a jury to conclude

The plaintiff asserts at page 10 of her legal memorandum that the staff at Shaw’s were afraid of
MacCalister and at page 20 refers to “Shaw’s employees’ own inferred fear of” MacCalister. See PASMF
¶ 290; see also Melia Aff. ¶ 138 (“The staff was frightened of CM too.”). Melia, the plaintiff’s expert,
has no foundation to testify about employees’ fear or lack thereof. Moreover, no Shaw’s’ employee
testified that he or she was afraid of MacCalister. The most any employee said was that she felt
awkward or uncomfortable with MacCalister. Schaffer Dep. at 28:11 (ECF No. 56-5). For summary
judgment purposes, I do not accept the plaintiff’s characterization of the employees’ “inferred fear,” for
lack of evidence.
32

50a
that it was a signal of impending violence and that Shaw’s should then have done
something. Even the plaintiff’s expert concedes that it was not significant. Melia Dep.
at 33:5.
I apply Maine law to those facts.
Maine Law
The first issue in a negligence case is whether the defendant owed the plaintiff
a duty of care. The Maine Law Court’s most recent pronouncement on the question of
duty 33 in a premises liability negligence case involved a sexual assault at a fraternity
house. In Brown v. Delta Tau Delta, 118 A.3d 789 (2015) the Law Court stated:
Even though the issue is fact driven, the question of duty is a legal
question decided by the court, not the jury. Because it is a mixed
question of law and fact, the facts in any given case will determine
whether an entity has a duty to the putative plaintiff. This is a multifactored analysis that necessarily evokes policy-based considerations
including the just allocation of loss.
Id. at 791-92 (internal citations omitted). For these “policy-based considerations
including the just allocation of loss,” the Court previously had said:
We must always consider societal expectations regarding behavior
and individual responsibility in allocating risks and costs, and we
consider “‘the hand of history, our ideals of morals and justice, the
convenience of administration of the rule, and our social ideas as to
where the loss should fall.’”
Alexander v. Mitchell, 930 A.2d 1016,1020 (Me. 2007) (not a premises liability case);
Decker v. New England Pub. Warehouse, 749 A.2d 762, 765 (Me. 2000) (same);
Trusiani v. Cumberland & York Distributors, Inc., 538 A.2d 258, 261 (Me. 1988)

For a helpful discussion of Maine’s duty cases, see Simmons, Zillman & Furbish, Maine Tort Law §
7.03 (2018).
33

51a
(same, and adding “mores of the community” and the “endeavor to make a rule in
each case that will be practical and in keeping with the general understanding of
mankind”).
In dealing with a third-party assault at a retail store, the Law Court has made
the parameters of duty clear: “a proprietor of an inn, hotel, motel, restaurant, or
similar establishment is liable for an assault upon a guest or patron by another
guest, patron, or third person where he has reason to anticipate such assault, and
fails to exercise reasonable care under the circumstances to prevent the assault or
interfere with its execution.” Kaechele v. Kenyon Oil Co., 747 A.2d 167, 170 (Me. 2000)
(emphasis added) (quoting Brewer v. Roosevelt Motor Lodge, 295 A.26 647, 651 (Me.
1972)). “A proprietor must guard its patrons against not only known dangers but also
those which it ‘should reasonably anticipate.’” Id. at 171 (emphasis added) (quoting
Brewer, 295 A.2d at 651). The reasonable anticipation issue “must be analyzed from
two perspectives: first, did [the store] have notice that its facility generally presented
a risk that third parties would assault its patrons; and second, did [the store] know,
or should it have anticipated that [the person who committed the violence] would
assault a patron on the [afternoon] in question.” Id. In this case, the plaintiff does
not argue the first “perspective” (that Shaw’s had notice of a general Saco facility risk
of third-party assault), but only the second—that on or before August 19, 2015,
Shaw’s should reasonably have anticipated that MacCalister was a danger to other
customers. 34 So the issue here is foreseeability (reasonable anticipation). Given
Although the plaintiff’s legal memorandum makes brief reference to the Saco urban environment,
Pl.’s Opp’n to Def.’s Mot. for Summ. J. (Pl.’s Opp’n) at 20 (ECF No. 85), at oral argument the plaintiff
34

52a
Maine’s clear law on this issue, I conclude in considering Shaw’s’ duty that I do not
need to assess—with one possible caveat—the policy-based considerations of duty,
but only foreseeability.
The Restatement (Third) of Torts: Liability for Physical and Emotional Harm
§ 7 cmt. j (2010), “disapproves” of this practice of making foreseeability a part of the
“duty” determination:
A no-duty ruling represents a determination, a purely legal question,
that no liability should be imposed on actors in a category of cases. Such
a ruling should be explained and justified based on articulated policies
or principles that justify exempting these actors from liability or
modifying the ordinary duty of reasonable care. These reasons of policy
and principle do not depend on the foreseeability of harm based on the
specific facts of a case. They should be articulated directly without
obscuring references to foreseeability.
. . . A lack of foreseeable risk in a specific case may be a basis for a nobreach determination, but such a ruling is not a no- duty determination.
Rather, it is a determination that no reasonable person could find that
the defendant has breached the duty of reasonable care. 35

confirmed that the estate’s claim does not rely upon either the urban environment in Saco, Maine, or
experiences at other Shaw’s stores, but rather upon the Saco Shaw’s store’s experience with
MacCalister.
I use the broad term “danger to other customers” because the Law Court has said: “That defendant’s
employee could not have foreseen the exact nature of the injury which in fact occurred, does not relieve
him of liability, if some harm was reasonably foreseeable under the circumstances” and that the
question of whether the ultimate harm was within the range of reasonable apprehension of “some
harm” is for the jury. Schultz v. Gould Academy, 332 A.2d 368, 370 (Me. 1975). “[D]anger to its
customers” is also a term that the plaintiff uses. See Pl.’s Opp’n at 21.
35 The Restatement (Third) of Torts: Liability for Physical and Emotional Harm § 40(b)(3) (2012) now
covers the affirmative duties of those who hold their property open to the public, replacing the
Restatement (Second) of Torts § 344. See Restatement (Third) of Torts § 51 cmt. a. Section 40(b)(3)
cmt. d says:
When a court is persuaded that, under the particular circumstances involved in the
case, no reasonable jury could conclude that the defendant acted unreasonably, the
court should find the evidence of negligence insufficient as a matter of law. Such a
resolution is preferable to employing a no-duty rule that is based on the particular
facts of the case. See § 7, Comment j.”
Section 7, comment j, is the comment I have quoted in text.

53a
Maine recognized the difficulty in 1992: “The designation of harm as
‘foreseeable’ gives rise to some confusion in negligence analyses because the question
of foreseeability informs both the issue of duty and the issue of proximate
cause.” Cameron v. Pepin, 610 A.2d 279, 281 (Me. 1992). Nevertheless, that case
declared that “[f]oreseeability . . . is one consideration among many that must be
taken into account when courts engage in a duty analysis,” id. at 282, and the Law
Court has never departed from that formulation. I apply Maine law and terminology
and therefore speak in terms of the court’s role in determining duty, including
the role of foreseeability or reasonable anticipation, but I do so, taking the facts in
the light most favorable to the plaintiff. 36
It is tempting to say that there is a material factual issue on foreseeability,
and simply leave this tragic case to a jury to straighten out. But Maine law is clear—
Shaw’s is liable only if it reasonably should have anticipated that MacCalister was a
danger to another customer on August 19, 2015. MacCalister’s appearance and
behavior in Shaw’s scared some customers and sometimes made a customer service
representative feel awkward or uncomfortable, and her clothing and shopping
behavior made her a suspect for shoplifting. Viewing this record in the light most
favorable to the plaintiff, I conclude that what Shaw’s knew, should have known, or

My ruling would be the same with the Third Restatement’s different nomenclature. Specifically,
Maine’s law of premises liability duty is clear, but the evidence presented on the motion for summary
judgment viewed in the light most favorable to the plaintiff would not support a jury finding that
Shaw’s should reasonably have anticipated that MacCalister created a danger to its customers and
taken preventive action on or before August 19, 2015.

36

54a
should reasonably have anticipated did not suggest that on August 19, 2015,
MacCalister was a danger to other customers. 37
And there is a potential policy issue here. Because the record does not establish
reasonable anticipation of danger, I need not resolve it, but the lurking issue is what
should be the duty of public retailers whose customers have bizarre or offensive
clothing, appearance, demeanor or behavior but do not actually engage in or threaten
violence on the retailers’ premises? To avoid risk, should the retailers exclude them
from their stores? 38 If the plaintiff should appeal and if the First Circuit should
disagree with my conclusion about the foreseeability of MacCalister’s danger to other

The plaintiff has presented an expert’s opinion that Shaw’s shoplifting prevention policies were
violated and, if followed, could have forestalled the murder. PAMSF ¶¶ 75-94. If I had found a duty on
the part of Shaw’s because it reasonably should have anticipated danger from MacCalister, such
evidence might be relevant on proximate causation and on whether Shaw’s behaved reasonably in
light of the threat. But I do not reach those issues because I conclude that in light of what Shaw’s knew
or reasonably should have anticipated, it had no reason to anticipate that MacCalister was dangerous
to other customers and therefore no duty.
The plaintiff also seems to argue that as a suspected shoplifter MacCalister should have been
viewed as a threat of violence. Pl.’s Opp’n at 6, 12; see also PASMF ¶ 251 referring to the plaintiff’s
expert’s affidavit that because a shoplifter is already committing a crime, the “likelihood that they
would commit another crime may therefore be increased” and referring to Shaw’s’ training materials
that staff should be “aware of the increased propensity for violence when dealing with shoplifters.”
Melia Aff. ¶ 99. But the plaintiff has admitted that his expert “agreed that certain criteria─like a
person wearing baggy clothing, carrying a backpack, shopping with a bag that is open, putting things
in a shopping cart so one cannot see what is underneath, or getting to the door and not quite looking
like one is going to buy something─are triggers for shoplifting but are not criteria that in and of
themselves would predict whether someone might commit a violent crime.” DSMF ¶ 159; POSMF ¶
159. Here, MacCalister’s murder of Boudreau had nothing to do with shoplifting. Yes, treating
MacCalister as a shoplifter and keeping her out of the store or intervening on the day of the murder
might have prevented the murder, but so too would keeping her out of the store for discriminatory
reasons involving her medical condition, gender identity, personal style choices, etc. Boudreau’s
murder was not within the scope of risk that Shaw’s shoplifting policies were concerned with.
38 Shaw’s raised this important issue summarily in the concluding paragraph of its reply: “At a policy
level, the Plaintiff’s position is untenable, as it would make grocery stores, retailers, restaurants, and
all public places responsible for identifying the psychiatric and criminal histories of all individuals
who pass through their doors, or at least those who appear different. The Plaintiff would charge stores
with the responsibility to constantly monitor these individuals while they are on the premises.” Def.’s
Reply to Pl.’s Opp’n at 10 (ECF No. 95). Because the issue was first raised in the defendant’s reply,
the plaintiff did not have an opportunity to respond to the argument in writing. The plaintiff did not
address it at oral argument.
37

55a
customers, it might be advisable to certify the issue to the Maine Law Court, because
the state public policy issue cannot easily be resolved by a federal court.
CONCLUSION
Wendy Boudreau’s August 2015 murder in the Saco Shaw’s ice cream aisle was
a shocking, tragic event. Could or should police and health care personnel, with the
information available to them, have appreciated MacCalister’s danger to others and
taken steps to thwart it? I don’t know. But the summary judgment record does not
support the conclusion that either generally or on the day in question Shaw’s’
personnel knew or reasonably should have anticipated that MacCalister posed a
danger to other customers in its Saco store.
The plaintiff’s motion for sanctions is DENIED and the defendant’s motion for
summary judgment is GRANTED. 39
SO ORDERED.
DATED THIS 18th DAY OF JULY, 2019.

/S/D. BROCK HORNBY______
D. BROCK HORNBY
UNITED STATES DISTRICT JUDGE

To the extent that either party has asked me to strike statements of material facts, no action is
necessary in light of my ruling.

39

56a
APPENDIX C

United States Court of Appeals
For the First Circuit
No. 19-1754
JEFFREY BOUDREAU,
as Personal Representative of the Estate of Wendy Boudreau,
Plaintiff, Appellant,
v.
SHAW'S SUPERMARKETS, INC.,
Defendant, Appellee.
___________________________________________________
Before Howard, Chief Judge,
Torruella, Lynch, Thompson, Kayatta and Barron, Circuit Judges.
ORDER OF COURT
Entered: May 19, 2020
Pursuant to First Circuit Internal Operating Procedure X(C), the petition for
rehearing en banc has also been treated as a petition for rehearing before the original
panel. The petition for rehearing having been denied by the panel of judges who
decided the case, and the petition for rehearing en banc having been submitted to the
active judges of this court and a majority of the judges not having voted that the case
be heard en banc, it is ordered that the petition for rehearing and petition for
rehearing en banc be denied.
TORRUELLA, Circuit Judge, dissents from the denial of en banc
rehearing.
By the Court: Maria R. Hamilton, Clerk

57a
APPENDIX D
RELEVANT STATUTORY PROVISIONS
Federal Rule of Evidence 701
If a witness is not testifying as an expert, testimony in the form of an opinion
is limited to one that is:
(a) rationally based on the witness’s perception;
(b) helpful to clearly understanding the witness’s testimony or to determining
a fact in issue; and
(c) not based on scientific, technical, or other specialized knowledge within the
scope of Rule 702.
USCS Fed. R. Evid. 701.

Federal Rule of Evidence 702
A witness who is qualified as an expert by knowledge, skill, experience,
training, or education may testify in the form of an opinion or otherwise if:
(a) the expert’s scientific, technical, or other specialized knowledge will help
the trier of fact to understand the evidence or to determine a fact in issue;
(b) the testimony is based on sufficient facts or data;
(c) the testimony is the product of reliable principles and methods; and
(d) the expert has reliably applied the principles and methods to the facts of
the case.
USCS Fed R. Evid. 702.

58a
Federal Rule of Evidence 703
An expert may base an opinion on facts or data in the case that the expert has
been made aware of or personally observed. If experts in the particular field would
reasonably rely on those kinds of facts or data in forming an opinion on the subject,
they need not be admissible for the opinion to be admitted. But if the facts or data
would otherwise be inadmissible, the proponent of the opinion may disclose them to
the jury only if their probative value in helping the jury evaluate the opinion
substantially outweighs their prejudicial effect.
USCS Fed R. Evid. 703.

Federal Rule of Evidence 704
(a)

In General—Not Automatically Objectionable. An opinion is not
objectionable just because it embraces an ultimate issue.

USCS Fed R. Evid. 704.

59a
APPENDIX E
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE

JEFFREY BOUDREAU, as PR of
the Estate of Wendy Boudreau,
Plaintiff,
v.
SHAW’S SUPERMARKETS, INC.,
Defendant

)
)
)
)
)
)
)
)
)
)

Case No. 2:17-cv-00259-DBH

AFFIDAVIT OF STEPHEN MELIA
I, Stephen Melia, being of legal age and competent in all respects to testify,
having personal knowledge of the matters set forth herein and having been duly
sworn, do hereby depose and state that the following is true and correct:
1.

My name is Stephen Melia and I have been retained as an expert

witness in this matter in the area of retail security and loss prevention.
2.

I am an expert in the field of retail security and loss prevention. I

currently work as the director of safety services at the Gateway Church in Southlake,
Texas. Prior to this position, I spent 30 years in the field of safety and security at
Walmart Stores, Inc. My CV is attached here as Exhibit A.
3.

Most of my expert opinions in this case are set forth in my deposition

testimony. However, to the extent I was not asked specific questions relevant to my

60a
opinion during my deposition, that testimony is set forth below along with some
supplemental information that I will present at trial as part of my expert opinion.
4.

I have recently been provided with additional video surveillance footage

from the day that Connor MacCalister (“CM”) murdered Wendy Boudreau, August
19, 2015. My understanding is that the video footage is somewhat distorted because
Plaintiff’s counsel had to record what was viewable at defense counsel’s office on her
iPhone. In my expert opinion, these videos could have and should have been produced
in a standard, easily viewable format, with the option to view in real time or slow
motion. However, upon information and belief, when Shaw’s provided these videos,
they could not be viewed in real time and were difficult to reproduce.
5.

My expert opinions regarding these new videos is set forth in Section I

below. Section II below sets forth my opinions in response to affidavits and witness
testimony about CM’s behavior in the store and the City of Saco generally.
6.

Section III of this Affidavit either supplements my deposition testimony

or provides additional information that was not specifically addressed or asked about
in my deposition.
SECTION I – ADDITIONAL VIDEO SURVEILLANCE FOOTAGE
7.

Exhibit B to this Affidavit is a series of still photographs from the video

surveillance footage referenced above. Exhibit B consists of 15 still photographs that
show CM’s shopping pattern and movement throughout the store just before she
murdered Wendy Boudreau.

61a
8.

Exhibit C to this Affidavit is a thumb drive that contains video clips

prepared by counsel for the Plaintiff, at defense counsel’s office. My understanding is
that Plaintiff’s counsel recorded the video that was viewable on a computer at defense
counsel’s office on her iPhone, in “slo-mo” mode.
9.

Whenever a retail establishment has a major crime committed on the

premises, the real time video should be preserved, as it provides crucial the best
evidence of what happened leading up to the crime.
10.

I have not seen video footage showing all camera angles that Shaw’s had

in operation on the day of the murder. Loss prevention officer Warren McCourt
testified that the store had 48 security cameras in operation that day. McCourt Depo
at 52:21 – 53:13. 1 However, Shaw’s has not provided a detailed list of the camera
angles in operation, or an explanation of why CM only appears on camera in the back
aisle of the store, the entrances, and the checkout area.
11.

The video footage from the entire month leading up to this murder would

have been extremely helpful to me in rendering an opinion concerning CM’s actions
and behaviors on her previous visits to the store. This would also provide valuable
information to opine if Shaw’s should have banned her from the store for a second
time in August of 2015 based on her behavior.
12.

Loss prevention for Shaw’s, Warren McCourt, testified that CM “bought

product” when she shopped in the store. McCourt Depo at p 11; 34. However, without
video surveillance of the month leading up to the attack, we do not have the best
I have reviewed all deposition testimony in this case, but specific citations in my affidavit have
been provided by counsel for Plaintiff.
1

62a
evidence available about whether this is true. The absence of this evidence is highly
prejudicial to Plaintiff.
13.

As I testified in my deposition, (page 187-188), the video footage from

the front- end cameras on the days leading up to the murder likely would have
captured the incidents with Cindy Belanger and/or Debra Surran; this surveillance
footage would be helpful to me in rendering my opinions in this case.
14.

It

would

be

extremely

important

to

see

the

front-end

and

overhead/cashier checkout cameras on the days that Debra Surran and Cindy
Belanger reported frightening interactions with CM, as discussed more fully below.
15.

In the retail security industry, when a serious crime is committed (such

as a murder in the store), it is standard operating procedure that the retail
establishment preserve all video footage that may be important to law enforcement
at the time the crime is committed. In my expert opinion, Warren McCourt recognized
this standard industry protocol. Both he and Rick DesFosses (District Loss
Prevention/Asset Protection Manager) testified that Shaw’s preserved and set aside
the hard drive that likely contained at least 30 days’ worth of footage from all cameras
in the store at the moment CM murdered Wendy Boudreau. This footage would be
good evidence of CM’s behavior, appearance, and demeanor at Shaw’s in the weeks
leading up to Wendy Boudreau’s murder.
16.

As I testified in my deposition, it is standard for a retail establishment

to maintain a chain of custody for video surveillance evidence when a serious accident
or crime occurs, both for the police and the retailer itself. The evidence to be preserved

63a
includes a “full and complete copy of any of the video surveillance” on the day of
incident, plus if there were “prior incidents or information that was relative to a
particular case,” that video evidence should be maintained as well. Melia Depo at
108:17 – 109:3.
17.

Any loss prevention or retail security professional should know from

their training and experience that when video evidence like this is preserved, it
cannot be simply thrown away and discarded until such time has passed that all
criminal and civil actions up to and including appeals or the statute of limitations
period have expired.
18.

Warren McCourt testified that he took steps to preserve this evidence.

According to Mr. McCourt, the hard drive should still exist from when he preserved
it. However, my understanding is that Shaw’s has not produced the hard drive from
that time period and they cannot explain what happened to it.
19.

Rick DesFosses also testified that the entire hard drive containing 30-

60 days’ worth of video surveillance was set aside and preserved, and should exist
somewhere still. DesFosses Depo at 77:4-11. According to DesFosses, the “whole hard
drive” was secured and preserved within a couple of days of the murder. Id. at 75:25
– 76:21.
20.

Exhibit B consists of 15 still photographs sent to me by counsel for the

Plaintiff. Exhibit B-1 is a photograph of Plaintiff’s late wife, Wendy Boudreau,
entering Shaw’s on August 19, 2015 around 3:00 pm.

64a
21.

In my expert opinion, discrepancies exist in the time stamps on the

videos discussed below; Shaw’s has offered no explanation for these discrepancies.
22.

Exhibit B-2 is a still photograph from video of what appears to be the

meat department of Shaw’s around 3:03 pm on the day of the murder.
23.

For purposes of my expert opinion in this case, I have been asked to

assume that Plaintiff will be able to prove via testimony of the EMTs at trial that the
two men in black shirts/uniforms, circled in red in Exhibit B-2, were Saco Fire
Department EMTs Jerry and Armand Beaulieu. One of these EMTs was carrying a
green shopping basket throughout the video clips and still photos I have summarized
below.
24.

According to the time stamps on Shaw’s video surveillance produced to

Plaintiff, Exhibit B-3 shows CM entering the back aisle of the store around 3:06 pm
on the day of the murder. CM is not carrying a basket, pushing a cart, or carrying
grocery items in her hands, which is the kind of thing that may indicate shoplifting
or other suspicious activity depending on the circumstances.
25.

In Exhibit B-4, it appears as though the same EMT carrying the green

basket in the back aisle of the store passes by CM a couple of times. Compare Armand
Beaulieu Depo at 28:1-8.
26.

Jerry Beaulieu’s witness statement says that he saw CM several times

in the back of the store passing by him, as if she was pacing. He then met up with
Armand Beaulieu and they discussed the fact that they had both seen CM walking
back and forth. They also discussed that the Saco Fire Department had a “past” with

65a
CM. See Exhibit 6 to PASMF. 2 Jerry Beaulieu also wrote in his witness statement
that CM caught his attention in the back aisle of Shaw’s because “her demeanor and
presentation was different.” Id.
27.

Based on the above testimony of Jerry and Armand Beaulieu, and the

details I can see from the photos at Exhibit B, my expert opinion is that the employees
working for Shaw’s had the same opportunity to take notice of CM pacing in the back
of the store. This is especially true considering Jerry Beaulieu’s own description of
CM’s behavior and a demeanor as “different.” Shaw’s should have noticed this and
approached or interacted with CM; if the EMTs had enough time to notice her, then
the store’s own employees should have as well.
28.

Exhibit B-5 appears to show the EMT carrying the green basket

proceeding further down the aisle toward the camera, while CM walks away from the
camera toward the produce section.
29.

Upon information and belief, Exhibit B-6 depicts Wendy Boudreau

emerging from an aisle that appears to be toward the frozen food section of the store.
What appears to be an employee of the meat department, in a classic white
coat/uniform, is depicted at the bottom right of Exhibit B-6. Toward the top of this
still photo, one of the Beaulieu EMTs appears to be in close proximity to CM.
30.

In Exhibit B-7, Wendy Boudreau is closer to the frozen food section of

the store, at the bottom of the photograph. The person in the white uniform is still at
the bottom right. One of the Beaulieu EMTs is making his way back toward the frozen
In addition to citations to deposition testimony, citations to POSMF and PASMF have been
provided by counsel for Plaintiff.
2

66a
food section and away from produce, while it appears that CM follows behind him in
the top of the photo.
31.

In Exhibit B-8, the two Beaulieu EMTs are facing CM as she walks

toward the frozen food section. The presumed Shaw’s meat department employee is
now facing and walking directly toward CM.
32.

Exhibit B-9 is a similar vantage point, but it shows the Beaulieu EMT

with the same green basket.
33.

In Exhibit B-10, the Shaw’s meat department employee crosses paths

directly with CM. At the same time, another Shaw’s employee who appears to be
carrying a broom, or something else with a long handle, walks out of an aisle and
nearly bumps in to CM. The EMTs can also be seen in this photo.
34.

Exhibit B-11 is a still photograph a few moments after the employee

carrying what looks like a broom handle crosses paths in close proximity to CM. The
Beaulieu EMTs are still facing in the direction of CM.
35.

In Exhibit B-12, the Beaulieu EMTs have passed CM, along with the

Shaw’s meat department employee. The employee with the long broom/handle is
walking directly in front of, and in close proximity to, CM.
36.

Exhibit B-13 shows CM starting to turn her body toward, or at least

near, the area of the store where Wendy Boudreau was last seen on camera.
37.

Exhibit B-14 shows CM turn and walk down an aisle toward the frozen

food section of the store. I am unable to state whether this is the exact aisle where

67a
Wendy Boudreau was stabbed, but based on the timing, I believe it must have been
close to that location.
38.

Exhibit B-15 is a still photo of when the paramedics and stretcher

arrived for Wendy Boudreau. The time stamp captured by the pharmacy camera was
15:08:23 (3:08:23 pm).
39.

The time stamp from Exhibit B-15 does not add up to the time stamp in

Exhibit B-14, which says that CM was turning down the aisle at 15:08:18 (3:08:18
pm).
40.

The events I have summarized above from Exhibit B can all be seen in

the videos attached as Exhibit C, Clips 7-11. Clips 7 and 8 show CM and Wendy
Boudreau entering the store around 2:59 pm that day.
41.

In Clip 9, CM is seen emerging from an aisle in the middle of the store

and walking into the back aisle around 3:06 pm. It is unclear whether this is 7
minutes after she first entered the store based on the time stamps from the front
entrance, or if this was just a couple minutes after she first entered the store.
42.

CM walks toward the produce section and passes by one of the Beaulieu

EMTs in Clip 9. She then pauses and walks down an aisle.
43.

Clips 10 and 11 depict the events I have described above related to

Exhibit B.
44.

I have reviewed a statement from the Maine State Police investigation

of the murder, from a witness with the initials JE, who stated that she observed CM
walking around the store before the murder.

68a
45.

With regard to CM’s earlier visit to Shaw’s on August 19, 2015, Clip 1

shows CM entering the store at 11:46 am, according to the time stamp on the camera
at the entrance.
46.

Shaw’s has provided a video entitled: “8-19-15 1204 transaction enter.”

This video shows the entrance to Shaw’s earlier on the day of the murder. When CM
entered the store, she was carrying a backpack and wearing long sleeves and baggy
clothes that, in my opinion, would have caught the attention of loss prevention who
are specifically trained to be more observant of that type of attire and to people
carrying a backpack.
47.

Clip 2 shows CM emerging from a center aisle into the back of the store

around 11:56 am on the day of the murder. She is carrying only one item in her hand.
48.

Clip 3 shows CM walking down the back aisle of the store at 11:56 am

in a manner that appears erratic or perhaps confused on what she is looking for in
the store. While this could just be consistent with someone trying to decide which
aisle to go down, the possibility cannot be excluded that CM was behaving in a
manner that likely would have caught the attention of employees or loss prevention.
49.

In the video submitted by Shaw’s in support of summary judgment

titled: “8-19- 15 1204 hours transaction,” CM is seen wearing a backpack, baggy
clothes, and still has on her sunglasses. She appears to have spent at least 15 minutes
in the store during that transaction.
50.

In my professional experience, because CM was in the store for at least

15 minutes and wearing the clothing described above, Shaw’s employees, loss

69a
prevention, and/or management had ample opportunity to approach, interact with,
and speak to CM. In my expert opinion (which is consistent with Shaw’s own policies
on providing customer service to deter shoplifting/crime), this would more likely than
not have acted as a deterrent by engaging CM in conversation, likely causing her not
to return later in the afternoon. My opinion in this regard is based on CM’s own
confession (attached to PASMF as Sealed Exhibit 10), where she admits that part of
the reason why she chose to murder Wendy Boudreau when she did is because no one
was around in the aisle. It is clear from CM’s own confession that she was watching
for an opportunity to commit the murder when Shaw’s was not watching her closely.
Therefore, it is likely that she would have been deterred by more interaction with
Shaw’s employees earlier that day or immediately prior to the murder.
51.

Clip 4 shows CM exiting the store at 11:57 am, but this time is not

consistent with when she went through the checkout. CM is seen sitting down on the
ground directly outside the entrance to the store, almost on the automatic door
sensor. This behavior would be considered loitering and disturbing to customers,
which is part of the reason why CM was banned from the store in 2011.
52.

In Clip 5, CM is still sitting on the ground right in front of the entrance

with her backpack. This is an odd location for a customer to sit on the ground,
especially considering that there was a bench right next to her. This in my opinion
would have been another opportunity for any employee, management, or loss
prevention to make contact with her and engage in conversation by asking her to
remain clear of the entrance doors.

70a
53.

In Clip 6, CM gets up to exit the area where she has been loitering in

front of the store for approximately 5 minutes. She is close enough that the automatic
door sensor goes off when she stands up.
54.

Based on Shaw’s own policies and procedures, someone should have

approached CM at that moment to ask why she was sitting there. If CM reacted
negatively to this interaction, the reasonable response would have been for Shaw’s to
ban her from the store or call the police like John DeRoche did back in 2011. This is
the kind of opportunity to interact with CM that Shaw’s employees could have taken,
which in my expert opinion, more likely than not, would have deterred CM from
committing the murder that day. It is also my opinion that the store employees either
had a “no contact” approach to interacting with CM, or they simply ignored her
unusual actions and behaviors which clearly caught the attention of customers in the
store.
SECTION II – AFFIDAVITS AND TESTIMONY ABOUT
CM’S BEHAVIOR
55.

I have had an opportunity to review the Affidavit of Steven Boucouvalas,

who is retired from his almost 20-year position with the City of Saco as a police and
fire dispatcher.
56.

According to Mr. Boucouvalas, dispatch received calls about CM’s

behavior in and around the City of Saco on an almost daily basis, which leads me to
believe that it is more likely than not CM’s behavior was bizarre, frightening, or
unstable; people do not call the police simply because someone is dressed in military
fatigues.

71a
57.

Some of the behaviors cited by Boucouvalas include pretending to shoot

at people, approaching car windows or staring into people’s home windows, and
behaving strangely while walking up and down the street. Boucouvalas Aff at ¶ 5
(attached to PASMF as Sealed Exhibit 5).
58.

Concerned citizens would report that CM was behaving like a “psycho,”

that she was dangerous, she would stare into space in a way that was frightening, or
march like she was in the military, and then get down on one knee in an abnormal
cadence. Boucouvalas Aff at ¶ 6. See also Affidavit of Mark Anderberg, attached here
as Exhibit D. Anderberg also described CM’s abnormal way of walking, and then
getting down on one knee, as she walked by his house on a daily basis on her way to
Shaw’s.
59.

In my expert opinion, the employees and management should have

shared those same concerns when CM was in the store, given Boucouvalas’
description of an angry/shocking expression on CM’s face, bulging eyes, a “crazed”
look, shaved head, large black army boots with camouflage regardless of the hot
weather, and Nazi tattoos. Boucouvalas Aff at ¶ 7-9.
60.

Sometimes dispatch would receive multiple calls about CM in the same

day, just based on her bizarre/deviant behavior walking around town. Boucouvalas
Aff at ¶ 10-14.
61.

Boucouvalas’ testimony establishes that calls came in to police dispatch

by Shaw’s own employees, who were calling to report that CM had returned to the
premises even after she was banned. Boucouvalas Aff at ¶ 14-16.

72a
62.

Shaw’s did not make a record of these calls, but that was also true when

John DeRoche had CM banned from the store in 2011. DeRoche Depo at 72:14-25.
63.

The Saco PD took calls about people who were not always named in the

police log, for instance because the person left before the police were on scene.
Boucouvalas believes some of the calls attached to his affidavit were about CM even
though she was not named. Boucouvalas Aff at ¶ 15.
64.

Jason Boudreau, Wendy’s son, also observed CM behaving strangely

while walking up and down North Street in Saco. CM would occasionally run right
out in front of cars in traffic; one day, Jason almost hit her. Jason Boudreau Depo at
16:10 – 17:13.
65.

Another time, Jason saw CM brandishing a knife and waiving it in the

air while walking down the street. Id. Yet another time, Jason saw CM behaving in
a way that he recalled was “F-ing crazy” near the railroad tracks. Id.
66.

Even Wendy Boudreau had mentioned to her son Jason that she noticed

“the girl on the road all dressed up.” Id. at 31:21 – 32:9.
67.

Jennifer Boudreau, one of Wendy’s daughters, recalled seeing CM on the

streets of Saco before the murder, and remembering that CM always looked like “a
guy dressed in army fatigues, shaved head, often wore black, walking very quickly,
angry, just scary.” Jennifer Boudreau Depo at 18:9 – 19:4.
68.

Jennifer Boudreau noticed the way that CM presented herself and the

way she walked more than the way she was dressed. Id. at 20:10 – 21:13. CM also
looked like she was talking to herself while walking down the street. Id.

73a
69.

After the murder, Jennifer’s aunt (Wendy’s sister, Patti Parisien) told

her that around lunchtime on the day of the murder, which was several hours before
it occurred, Patti saw CM running down North Street in the direction of Shaw’s
waiving a knife in the air. Id. at 27:10-21.
70.

Jeff Boudreau recalled having conversations with his wife Wendy prior

to August 19, 2015 where Wendy indicated that the way CM looked and acted was
such that if she got close to somebody in Shaw’s, “it would be intimidating.” Jeff
Boudreau Depo at 27:11-18.
71.

Jeff Boudreau believed that a number of people were intimidated and

scared by CM while shopping in Shaw’s prior to the murder. Id. at 29:21 – 30:2.
72.

I have also reviewed the affidavits of two other witnesses, Mark

Anderberg and Thomas Wright. Each of these affidavits corroborate that CM was
frightening and behaved in a way that appeared mentally unstable while walking
around the streets of Saco.
73.

Store employee Joan Doyle, who cashed out CM earlier on the day of the

murder, said that even when she spoke directly to CM, there was “no response,” which
was unusual. Doyle Depo at 33:1-11. This is different than a customer being shy or
quiet; a completely nonresponsive customer is cause for concern.
74.

Ms. Doyle’s daughter, Sharon Picard, worked for Shaw’s and told her

mother that CM was rumored to steal from Shaw’s. Doyle Depo at 20:8-16.

74a
75.

Another cashier named Brittani Wood admitted that she had heard

customers complain about CM, saying “what’s with her or she seems weird,” but Ms.
Wood interpreted this as “nothing serious.” Wood Depo at 22:7-15.
76.

Yet another employee, Michele Schaffer, testified that the way CM

carried herself may have been threatening to some people, just based on CM’s
demeanor. It almost seemed like CM was trying to “feel out her surroundings” when
she came into Shaw’s. She would have big eyes, which Ms. Schaffer figured was drug
related. Ms. Schaffer thought it was natural to be more on guard around CM, who
would dress in all black, with big jackets and hoods, baggy clothes, and dark/black
makeup. Ms. Schaffer had moments where she felt uncomfortable around CM.
Schaffer Depo at 25:10 – 28:14.
77.

Ms. Schaffer felt that CM’s behavior was strange and/or concerning from

time to time. Id. at 9:3-7.
78.

Ms. Schaffer thought it was “general consensus” that “something was

up” with CM. Id. at 9:17-23. Sometimes CM would come into the store shaking. Id. at
9:8-15.
79.

Ms. Schaffer agreed that when a customer reports that another

customer is “a little off,” or reports feeling uncomfortable, that concern should be
brought to store management. Id. at 31:6 – 32:10.
80.

Shaw’s had a woman who was banned from the store and was a

“constant theft person,” so the management told Ms. Schaffer and other employees
that if they saw this woman come in, they should alert management. Id. at 33:19 –

75a
34:15. Ms. Schaffer was never told by management that CM had been previously
banned from the store. Id. at 35:1-3.
81.

Ms. Schaffer remembers that before the murder occurred, people told

her that CM “steals.” Id. at 12:1-7.
82.

Ms. Schaffer said people told her that CM stole from the health and

beauty department, as well as alcohol, but Ms. Schaffer never followed her, “never
wanted to.” Id. at 15:4-24.
83.

Alexandra Gogos, who is the employee that ran to Wendy Boudreau’s

aid as CM was attacking Wendy, testified that she heard from “many different”
employees soon after the murder occurred that CM was suspected of shoplifting and
she was “kind of creepy.” Gogos Depo at 22:22 – 23:13.
84.

Former store manager John DeRoche specifically asked loss prevention

to watch CM because she looked “suspicious” to Mr. DeRoche. DeRoche Depo at 26:17
– 27:8.
85.

The first time John DeRoche saw CM, he was “a little shocked.” CM had

baggy clothes on, “like the baggiest I’ve ever seen on anybody, chain down her side,”
and a shaved head. Id. at 38:24 – 39:7.
86.

DeRoche called the police on CM in 2011 because customers reported to

him that CM “scared them.” CM’s hoodie was covering her face at the time. CM was
standing next to an ashtray blowing smoke rings. “It looked like something out of a
scary movie. . . this figure, all dark.” Id. at 45:6 – 46:18. The police told DeRoche,

76a
“we’ve had interactions with her before,” and CM lived with her mother, who was
“crazier than she is.” Id.
87.

When DeRoche called the police on CM, he reported that she was “acting

very strange.” Id. at 53:7-14. “That day she looked scary. Other days I think she just
looked weird,” the way she had her hood over her head it was like she was “frozen.”
Id. at 54:12-18. DeRoche does not remember the customers’ exact words, but it was
something about CM being scary or making them nervous. Id. at 55:8-15.
88.

DeRoche knew that he did not want CM causing problems in the store.

When he saw her in Shaw’s again after she had been “trespassed,” he thought “she’s
not supposed to be here.” Id. at 66:3-11.
89.

When DeRoche let CM back in to the store about a year after she was

banned in 2011, he thought to himself, “this is someone we want to keep an eye on.”
Id. at 85:3-7. Joan Doyle overheard him tell CM at that time, “I told you you weren’t
allowed in my store.” Doyle Depo at 43:17 – 44:2.
90.

In light of all the above information, it is clear that from a security/loss

prevention standpoint, the employees of Shaw’s had regular opportunities to observe
and interact with CM to determine if she continued to pose a threat to customers
shopping in the store, or if she was shoplifting. In my expert opinion, Shaw’s failed to
take those opportunities to observe, interact with, and remove CM from the store
prior to Wendy Boudreau’s murder, and in doing so they failed to provide a reasonably
safe place for customers to shop.

77a
SECTION III – ADDITIONAL INFORMATION TO SUPPORT
MY EXPERT OPINION
91.

In my deposition, I testified that it would be important to review actions,

behavior, and demeanor of customers to see if there is a cause for concern when the
customer is nonresponsive to questioning. One of the best deterrents to criminal
activity in the retail environment is consistent and intentional customer service. In
my professional experience, criminals do not want to be noticed or identified if their
intent is to commit a crime.
92.

One of the primary duties of store loss prevention is to identify and

apprehend shoplifters, therefore security personnel must be able to identify actions
and behaviors of people. It is standard in the industry that loss prevention (security)
personnel are equally tasked with identifying people or store conditions that may
pose a threat or a risk to customer and employee safety or security.
93.

In my expert opinion, CM exhibited actions and behaviors over a period

of time that should have been identified by employees, management, and loss
prevention personnel.
94.

Shaw’s management and employees are trained to approach customers

in order to offer them customer service.
95.

Shaw’s employees have more opportunity than customers to assess

whether CM posed a threat to other customers, or whether she appeared to be
dangerous, or whether she may be shoplifting if they would have provided good
customer service.

78a
96.

The fact that Shaw’s employees did not approach CM more often

suggests they failed to abide by their own policies and procedures.
97.

Shaw’s employees could not observe concerning behavior if they were

not watching or interacting with CM.
98.

The fact that CM consistently dressed and behaved in a bizarre,

concerning manner increases rather than decreases the number of times security
professionals would want to interact with her; in my field, a loss prevention officer
does not simply stop paying attention to a customer who is behaving oddly because
they have not stolen anything or engaged in a criminal act yet; they continue to watch.
99.

In my deposition, I testified that shoplifters do pose a threat of violence

above and beyond the average customer, because they are already involved in
committing a crime and the likelihood that they would commit another crime may
therefore be increased. Melia Depo at 173:10 – 174:23. Shaw’s own training materials
talk about being aware of the increased propensity for violence when dealing with
shoplifters. Id. This is important to my opinion in this case because both a customer
service representative (Michelle Schaffer) and a loss prevention officer (Warren
McCourt) acknowledged that various people had suspected CM of shoplifting prior to
the time that she murdered Wendy Boudreau. Other witnesses like Gogos and Doyle
have acknowledged this fact as well.
100.

It is more likely than not that Bryan Goodrich and others in Shaw’s

management were not paying close enough attention and that is why they did not
recognize CM or witness the same things that Surran, Corriveau and Belanger did.

79a
101.

Assistant store manager Adam Veno, who was six weeks into the job

when Wendy Boudreau was murdered, had not even reviewed Shaw’s loss prevention
policy at the time of the murder. Veno Depo at 9:1-18.
102.

Veno testified that in a situation where a customer was acting strange,

he would “give good customer service.” Id. at 18:12-22.
103.

However, Veno would not take notice of the kind of people outlined in

Shaw’s own policies, such as those with baggy clothes or backpacks, because there
are 15,000 customers coming through the store each week. Id. at 19:2-19.
104.

Veno acknowledged he should take notice of a customer who was

wearing heavy coats or clothes on a hot day, but “with 15,000 customers I probably
wouldn’t even notice it.” Id. at 20:20 – 21:8.
105.

Veno also acknowledged that he had been trained to look out for

suspicious activity in general, but that’s a “generalization,” and it could be “anything.”
Therefore, he did not know how to answer the question. Id. at 24:21 – 25:8.
106.

When asked if the store manager is responsible for keeping customers

safe, Veno responded, “I’m not a police officer,” but also acknowledged that “my job is
to make sure that we are on the floor” and “engaging with customers.” Id. at 25:17 –
26:16.
107.

However, in the six weeks before Wendy Boudreau’s murder, when

Adam Veno was in the store 40 hours per week training to be an assistant manager,
he never observed CM once. Id. at 31:12 – 32:22.

80a
108.

In my expert opinion, the above testimony from Adam Veno is not

consistent with him being on the floor “80, 90 percent of the time.” Id. at 33:14-22.
109.

Bryan Goodrich testified that he was “very customer facing,” and

customer driven, being on the floor 80 percent of the time providing customer service;
“that’s our job.” Goodrich Depo at 36:3-25.
110.

In my expert opinion, the above testimony from Bryan Goodrich is not

consistent with the fact that he did not recognize CM when he learned of the murder,
which was approximately eight months after he began working at the Saco Shaw’s.
Id. at 35:11 – 36:2; 37:19 – 38:5.
111.

Goodrich testified that his job was to be “constantly observing” on the

sales floor. Id. at 46:6-24. Shaw’s encourages managers and assistant managers who
are engaged in other tasks that are not directly “on the floor” to look up repeatedly as
the task is being performed, so they can greet customers. Id. at 43:15 – 44:25.
112.

Goodrich agreed that part of his job while observing customers is to look

for indications that someone might pose a safety risk, but then he testified that he is
not going to “label any customers as a potential risk.” Id. at 51:2 – 52:16.
113.

Goodrich testified that he believed he had been present in a risk

management meeting where the topic was customer safety from the standpoint of
violent crimes, rather than slip and falls and food borne illnesses; however, Goodrich
could not remember the specifics. Id. at 61:6 – 62:11.
114.

Goodrich learned after the murder that CM “creeped out” a cashier.

However, he took no steps after the murder to investigate whether cashiers had

81a
information about her behavior that should have been reported to him or another
member of management. Id. at 78:9 – 80:25. This is true even though Goodrich also
learned after the fact that CM “possibly shoplifted in our store.” Id. Goodrich heard
specifically that CM stole from health and beauty. Id. at 98:3-6.
115.

Goodrich never spoke to Michelle Lavoie to determine whether Debra

Surran in fact reported that something was wrong with CM; nor did he investigate
whether other employees had failed to report concerning behavior that they may have
noticed. Id. at 87:13 – 90:25. Goodrich has not spoken to any of the cashiers who were
working back in 2015 about whether the incident reported by Ms. Surran, Ms.
Corriveau, or Ms. Belanger actually happened. Id. at 92:15 – 93:12.
116.

Goodrich has a list in his mind of things that he would consider to be

suspicious customer behaviors, such as loitering around the store and not shopping
at all, customers in the health and beauty aisle who aren’t purchasing items from
that aisle, and customers that are “looking suspicious.” Id. at 11:1-19.
117.

When loss prevention officer Warren McCourt was asked if he had been

trained that part of Shaw’s mission was to provide a “safe, secure, and hospitable
shopping environment,” he said he is trained only to keep the store’s assets secure,
not to be “a security guard.” McCourt Depo at 27:9 – 28:11. However, if McCourt seeks
suspicious behavior, he will report it to the store director. Id. at 29:6-14.
118.

McCourt disagreed with Shaw’s own policy that states it is a trigger for

loss prevention when a customer tends to linger near exits, or loitering and not
shopping. Id. at 32:13.

82a
119.

McCourt prefers to watch for customers with very baggy clothing, or

winter coat/hoodies on in the summer. He did not, however, recall that CM used to
wear exactly this kind of clothing in the summer. Id. at 33:9 – 34:1.
120.

McCourt recalled customer service representative Michele Schaffer

telling him that she thought CM was weird or strange “or something like that.” Id. at
37:1-14. McCourt told Ms. Schaffer to talk to the store director but did not follow up
on the issue further. Id.
121.

When store director John DeRoche asked McCourt to watch CM back in

2011, he did not provide details “other than she had caused a nuisance ruckus. There
was a problem, an issue outside, and I believe the Saco Police came.” However,
McCourt did not think CM’s appearance or behavior was unusual. Id. at 10:19 – 11:22.
122.

Shaw’s has a process in place for loss prevention and store managers to

report up to the District Managers when there is a customer who they might suspect
of shoplifting. However, as the district manager, DesFosses never heard of CM or her
being banned back in 2011. DesFosses Depo at 19:1-18. See also id. at 28:17-24 (“I did
not know the name Connor MacCalister until this event happened. I don’t believe . .
. it had been communicated to me in any manner.”).
123.

DesFosses testified that if someone was just wandering around in the

store and did not appear to be shopping, he would train his staff to alert management.
Id. at 40:1-9. He would also keep an eye on areas of “highly pilfered items,” which
includes health and beauty. Id. at 40:10-15.

83a
124.

DesFosses testified that Shaw’s mission statement, the first bullet point

of which is to provide customers with a “safe, secure, and hospitable shopping
environment,” is only a “piece of what we do.” Id. at 47:6 – 48:14. According to
DesFosses, customer safety and security is only important “to some extent, yes.” Id.
DesFosses later testified that he disagreed with the concept of what it means to keep
customers “safe.” Id. at 50:4-9.
125.

DesFosses’s goal is only to detect when a customer is stealing, not if they

are acting strangely or dressed differently. In the latter situation, the store would
want to provide customer service to the individual. Id. at 56:18 – 57:6.
126.

When asked if he went back to investigate whether CM was exhibiting

signs of dangerous behavior when she shopped in the store prior to the murder,
DesFosses testified he did not see that as “part of my job.” Id. at 70:14 – 71:5.
127.

DesFosses agreed that loss prevention should watch closely and monitor

customer behavior that creates a disturbance. Id. at 92:19 – 93:4. Behavioral
observations are important to the job of loss prevention. Id. at 93:5-18. Loss
prevention is trained to look for “deviant” behavior. Id. at 94:8 – 95:6.
128.

DesFosses agreed that people who are hanging around the store but do

not appear to be carrying a basket or cart, or engaging in a normal shopping pattern,
are a red flag for loss prevention that should be watched. Even for management who
are not in loss prevention, customer service is the best deterrent because “if you’re
not a thief, you’re happy to have somebody helping you out.” Id. at 98:13 – 100:10.

84a
129.

If loss prevention saw behavior that was suspicious for shoplifting but

did not rise to the level of being able to make an apprehension, “we would notify
management and say you need to go customer service that person. That would be the
deterrent we would use.” Id. at 117:1-22.
130.

I testified in my deposition that there is always someone in a

supervisory role present in the front end of a supermarket besides the cashiers. Those
people can either be customer service representatives or front-end managers, to name
a couple of examples. 185:19 – 186:22. The supervisory employees in the front-end of
the store are responsible for watching the customer flow, assisting cashiers, and
generally watching what is going on in the general area. Id.
131.

Regarding Cindy Belanger, if they were a group of thugs, lunging at or

scaring customers, then they would be banned. CM had been banned before for
scaring customers.
132.

I cannot determine exactly where CM was standing in relation to Cindy

Belanger on the day of this threatening lunge or encounter, but it is reasonable to
conclude that since Cindy Belanger was standing in line at the checkout, and she
could see CM, the cashier at the checkout could likely see CM as well.
133.

If CM was “clear across the store” from Cindy Belanger when this

incident took place (Melia Depo at 37:18-22), this would mean that numerous Shaw’s
employees in the front of the store would have had an opportunity to observe her at
the same time Cindy Belanger did. The fact that CM was standing way over by the

85a
produce section when a customer in the checkout line saw her only increases the
number of employees who would have had an opportunity to observe her that day.
134.

Debra Surran kept a basket between her and CM because she felt she

needed a physical barrier between them; Ms. Surran feared for her safety. Melia Depo
at 60:6-15.
135.

Part of my expert opinion in this case is that the cashier Ms. Surran

spoke with on the day in question should have responded when Ms. Surran said
something was wrong with CM by having her speak with a manager or front-end
supervisor at the time. Id. at 61:10-22.
136.

Ms. Surran told this cashier not once but twice that there was

“something wrong” with CM after CM left the store. Id. at 63:18-25.
137.

The cashier, Michelle Lavoie, did not recall the whole interaction

between her and Debra Surran and CM, but “the small part I can barely remember
is that she wasn’t thrilled with Connor,” but “whatever she said didn’t flag me to be
concerned. I can’t stop customers from coming in the door.” Lavoie Depo at 43:3 –
44:15.
138.

Based on my entire review of this case, it appears as though Shaw’s did

not interact with CM for the very same reason identified by the three witnesses who
felt threatened by her (Debra Surran, Cindy Belanger, and Katie Corriveau): The
staff was frightened of CM too.
139.

In my deposition, I testified that the current store manager did not even

recognize CM or know who she was. (Melia Depo at 157:1-6). In my opinion, it is

86a
highly unusual and negligent for a store manager to avoid getting to know a customer
who had previously been banned from the store, dressed in a strange manner, had
repeated calls to the police, and seemed mentally unstable.
140.

Attached to this Affidavit as Exhibit E is a job listing for an Asset

Protection Specialist as well as a Loss Prevention Specialist for Shaw’s. The job
listings are similar, and both include “observes customers throughout the store” as
part of the responsibilities of this role. See Exhibit E at PL 369 and PL 371. Both job
listings also indicate that the position requires the individual to “report all unsafe
conditions to store management and the security supervisor” whenever a safety
hazard is present. Id. In my expert opinion, CM presented a safety hazard every time
she was in the store, which was ignored by loss prevention and store management.
141.

In all likelihood, if Shaw’s had taken these steps, and involved the police

every time CM exhibited bizarre actions and behaviors in the store, she would have
most likely been banned from the store, and Wendy Boudreau’s death would have
been avoided.

Remainder of page left intentionally blank.

87a
Dated at Roanoke, Texas this 4th day of February, 2019.
/s/ Stephen Melia
______________________________
Stephen Melia

STATE OF TEXAS
Denton County, ss.

February 4, 2019

PERSONALLY appeared the above-named Stephen Melia who acknowledged
the foregoing instrument to be his free act and deed, and made oath that the foregoing
was based upon his own knowledge, information or belief, and to the extent based
upon information and belief, that he believes this information to be true.
Before me,
* Original notarized affidavit
maintained by undersigned counsel
pursuant to Appendix IV, section (h)(3)
of the D. Me. Local Rules

_____________________________________

Notary Public/Attorney at Law

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 27 of 53
•
88a

PageID #: 1522
~. , . DEPOSITION
~.
EXHIBIT

S. MELIA CONSULTING, LLC

P.o. Box 93363, Southlake, TX 76092
479-644-4120. s.meJiaconsulting@gmaiLcom 0 www.meJiaconsulting.com

~ltv\.

n

!~~~
.'c

L

As an expert in the field of Safety and Security and with over 31 years of experience with Walmart
Stores, Inc., Stephen Melia has had the opportunity to collaborate with internal and external
customers, business professionals, law firms and security providers as well as a variety of
colleagues in the industry. He has led positive change within the safety and security field by
directing and guiding teams to achieve initiatives that further benefit the productivity and
reputation of the business. He has specific knowledge in the areas of policy and procedure that are
considered standard in the industry as it relates to security, safety, criminal investigations, crowd
management, accident investigation and security event planning. Mr. Melia has experience in
providing corporate expert witness testimony 30(b)(6) on cases involving premise liability, slip
and fall accidents, and false arrest allegations as well as basic policy and procedures that are
considered standard in the retail safety and security industry.

Expert Witness Fee Schedule and Expense Reimbursement:
•

Hourly fee for phone conference and consulting - $1 OO.OOthour

•

Hourly fee for travel time and waiting time at a deposition or trial - $IOO.OO/hour

•

Hourly fee for document review, case study, research and reports - $200.00/hour

•

Hourly fee for deposition and courtroom testimony - $300.00Ihour

Note: Hourly fees are biIJed at each Y. hour increment
In addition to the hourly fees noted above, travel expenses for depositions andlor court testimony will be
billed at the following rates:
•

Travel by personal vehicle - .56 cents per mile

•

Meals, airfare, taxi, lodging, rental vehicle, and tolls to be paid at the actual rate of documented
expense.

Note: Copies of receipts will be included with billing statement.

Texas DPS License #C0407670 1

Exhibit A to Melia Aff.

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 28 of 53

PageID #: 1523

89a

S. MELIA CONSULTING, LLC
P.o. Box 93363, Southlake, TX 76092
479-644-4120. s.meliaconsulting@gmail.com • www.meliaconsulting.com

I Career Contributions to Security and Safety Initiatives
SECURITY:
Stephen Melia conducted hundreds of investigations related to criminal activity such as internal theft,
embezzlement and external theft which led to criminal charges being filed, prosecution and recovery of
assets.
•
•
•
•
•
•
•
•
•

Attended first coalition meeting to address Organized Retail Crime (ORC) impacting mUltiple
retailers with directors of security from Walmart, Target, Kmart, and Venture stores
Implementation of security measures at club level to mitigate the theft of tobacco products in
Houston, TX
Identified and contracted third party company to install protective laminate on front doors to prevent
jewelry and electronics burglaries in San Antonio, TX
Assessment of Puerto Rico asset protection structure to effectively allocate the security resources
Parking lot patrol creation and implementation of corporate training manual for stores
Designed security measures for data center and David Glass technology building in Bentonville, AR
Evaluation and enhancement of alarm technician position to support CCTV initiatives and reduce
cost of third party services
Implementation of CAP index to assess current store locations and worked closely with real estate
on new site survey and design of security systems
Organized an active shooter training drill with local law enforcement for enhanced preparedness
procedures

SAFETY AND COMPLIANCE:
Mr. Melia conducted regular visits to retail stores and wholesale clubs to inspect procedures related to safety
standards that included slip/fall prevention, falling merchandise, OSHA compliance, accident reviews and
employee safety practices to mitigate risk for customers and employees. The findings resulted in
determination of root causes of risk with the expectation of corrective measures taken at store and club level
by the leadership team. Stephen frequently met with store safety teams to review accident trends and
provide solutions on reducing same or similar risks in the future.
•
•
•
•
•

Development and implementation of asset protection manager position for Sam's Club
Oversight related to civil unrest, including initiatives to ensure protection of associates and property
Created corporate response procedures to post September II, 200 I bomb threat protocol and physical
security assessment of corporate offices
Creation of holiday safety and security guidelines to inform employees of personal safety
Directed emergency command centers in the gulf coast region during hurricane seasons to ensure
safe evacuation of staff, protection of property, and community support of supply needs during
recovery effort

Texas DPS License #C0407670 I

Exhibit A to Melia Aff.

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 29 of 53
90a

PageID #: 1524

Wendy Boudreau entering at 3:00 pm

EXHIBIT B 1

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 30 of 53
3:03 pm: Saco Fire Dept.
91a
EMTs Armand and Jerry
Beaulieu, one with green
basket.

PageID #: 1525

EXHIBIT B 2

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 31 of 53

PageID #: 1526

92a

3:06 pm: Connor
MacCalister enters
back aisle, looks
around, no basket
or cart

EXHIBIT B 3

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 32 of 53

PageID #: 1527

93a

3:06 pm: Connor MacCalister
and EMT Beaulieu (green
basket) pass each other, nearly
touching

EXHIBIT B 4

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 33 of 53

PageID #: 1528

94a

3:06 pm: Connor MacCalister
walks toward produce section
after passing EMT Beaulieu
with green basket

EMT Beaulieu with
green basket

EXHIBIT B 5

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 34 of 53

PageID #: 1529

95a

EMT/Beaulieu by
Connor MacCalister
for second time

Wendy Boudreau

Shaw's employee/
meat department
EXHIBIT B 6

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 35 of 53

PageID #: 1530

96a
Connor MacCalister

EMT/Beaulieu

Wendy Boudreau

Shaw's employee/
meat department
EXHIBIT B 7

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 36 of 53

PageID #: 1531

97a

Shaw's employee/
meat department

Connor MacCalister

Both Beaulieu EMTs
facing CM

EXHIBIT B 8

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 37 of 53

PageID #: 1532

98a

Shaw's employee/
meat department

Connor MacCalister

Beaulieu EMT with
green basket

EXHIBIT B 9

3:08 pm Document 84-17 Filed 02/04/19 Page 38 of 53
Case 2:17-cv-00259-DBH

PageID #: 1533

99a

Connor MacCalister

Shaw's employee/
meat department
passes CM
Both Beaulieu EMTs
facing CM

Shaw's employee
with broom/long
handle nearly runs

EXHIBIT B 10

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 39 of 53

PageID #: 1534

100a

Connor MacCalister

Shaw's employee/
meat department
passing CM

Two Beaulieu EMTs
passing CM again

Shaw's employee,
carrying long broom/
handle, nearly runs into
CM
EXHIBIT B 11

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 40 of 53

PageID #: 1535

101a

Shaw's employee/
meat department
walking away

Two Beaulieu EMTs

Connor MacCalister

Shaw's employee,
nearly ran into CM
moments earlier
EXHIBIT B 12

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 41 of 53

PageID #: 1536

102a

3:08 pm: Connor
MacCalister looks
down aisle

Same Shaw's
employee with
broom handle

EXHIBIT B 13

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 42 of 53

PageID #: 1537

103a

Two Beaulieu EMTs

Connor MacCalister
turns down aisle

Same Shaw's
employee who
nearly ran into CM

EXHIBIT B 14

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 43 of Stretcher
53 PageID
#: 1538
on way
in; time stamp above is
104a

3:08 pm, but Saco PD records show
paramedics arrived at 3:14 pm

EXHIBIT B 15

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 44 of 53

PageID #: 1539

105a

EXHIBIT C
TO THE
AFFIDAVIT OF STEPHEN MELIA
DISK CONTAINING
VIDEO CLIPS 1-11

Mailed to the Court o n February 4,
2019, with a copy t o o pposing counsel

EXHIBIT C to Melia Aff.

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 45 of 53

PageID #: 1540

106a

bergen 11'/1
parKinson

Wayne T. Adams
Christian L Barner
Milda A. Castner
Susan Bemstein Driscoll

Sarah B. Neault
Durward W. Parkinson
Leah B. Rachin
Laura H. White

L . - - - - ATTORNEYS

Scott M. Edmunds

O/Counsel

William J. Gallitto, III

Jonathan Bangs

Jason G. Howe

Barbara I. Belik

David C. Johnson

Michael W. Macleod-Ball
In Memoriam

Benjamin T. McCall

C. Wesley Crowell

Courtney Michalec Hart
Brin M. Moore

February 4,2019
lwhite@bergenparkinson.com

Via Fed Ex Overnight

Christa K. Berry, Clerk
Edward T. Gignoux United States Courthouse
156 Federal Street
Portland, Maine 04101

Re:

Jeffrev Boudreau v. Shaw's Supermarkets, Inc.
Docket No. 2: 17-cv-00259-DBH

Dear Ms. Berry:
I have enclosed for the Court's review in the above-captioned case a CD containing 11
video clips. This CD is Exhibit C to the Affidavit of Stephen Melia, which is Exhibit 17 to
Plaintiffs Opposing and Additional Statement of Material Facts. I have filed a placeholder
referencing the disk, along with this letter, on the electronic docket.
Please do not hesitate to contact me if you have any questions. Thank you very much
for your assistance with this case.

Very truly yours,

~\Jt.A'/\'
Laura H. White

Enclosure
cc:
Elizabeth G. Stouder, Esq. (enclosing thumb drive)
Jeffrey Boudreau

bergen parkinson LLC
62 Portland Road, Suite 25, Kennebunk, Maine 04043 tel. 207-985-7000 fax 207-985-7707
www.bergenparkinson.com

EXHIBIT C to Melia Aff.

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 46 of 53

PageID #: 1541

107a
UNlTED STATES DISTRICT COURT
DISTRICT OF MAINE

JEFFREY BOUDREAU, as PR of the
Estate of Wendy Boudreau,

Plaintiff,
v.

)
)
)
)
)
)

Case No. 2:17-cv-002S9-DBH

)
SHAW'S SUPERMARKETS, INC.,

Defendant

)
)

)

AFFIDAVIT OF MARK ANDERBERG
I, Mark Anderberg, being of legal age and competent in all respects to testify, having

personal knowledge of the matters set forth herein and having been duly sworn, do hereby
depose and state that the following is true and correct:
1.

My name is Mark Anderberg. I am 47 years old and a resident of the City of

Saco, County of York, and State of Maine.
2.

My home is located at the comer of Mechanic and Spring Street in Saco, which

gives me a direct view of the entrance to the Shaw's parking lot and the store.
3.

Prior to August 19,20 15, Connor MacCallister would walk by my house on her

way to Shaw's nearly every afternoon.
4.

I was not working during the summer of2015, so I would see Connor

MacCallister walk by my house almost every afternoon.
5.

When MacCallister walked by, she engaged in repetitive, strange behavior that

concerned me. For instance, MacCallister would walk by my porch in the same pattern every
day, walking roughly 5 feet and then bending down on one knee. Once down on her knee,

1

EXHIBIT D to Melia Aff.

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 47 of 53

PageID #: 1542

108a
MacCallister would take a sip of water, get up, and then repeat the pattem again. She would stop
in the same spot every time.
6.

It seemed very clear to me that MacCallister was disturbed and/or mentally ill.

Her behavior was certainly not normal, and she always had a hollow look in her eyes.
7.

One time in the summer of2015, maybe a month before Wendy Boudreau was

murdered, I was sitting on the front porch with my brother, who is disabled. MacCallister
walked right up onto my porch and sat down beside my brother. She did not speak or make eye
contact. MacCallister's behavior scared me. There was no question in my mind that she was
unstable or potentially dangerous.
8.

I told her to get off my porch, and she walked away without saying anything.

9.

Based on my observations of MacCallister, she went into Shaw's on a daily basis

in the summer of2015.

Remainder ofpage left intentionally blank

2

EXHIBIT D to Melia Aff.

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 48 of 53

PageID #: 1543

109a

Dated at Kennebunk, Maine this 19th day of July, 2018.

/s/ Mark Anderberg
_________________________________
Mark Anderberg

STATE OF MAINE
YORK, ss.

July 19, 2018

PERSONALLY appeared the above-named Mark Anderberg who acknowledged the
foregoing instrument to be his free act and deed, and made oath that the foregoing was based
upon his own knowledge, information or belief, and to the extent based upon information and
belief, that he believes this information to be true.
Before me,
* Original notarized affidavit maintained by
undersigned counsel pursuant to Appendix IV,
section (h)(3) of the D. Me. Local Rules
______________________________
Notary Public/Attorney at Law

3

EXHIBIT D to Melia Aff.

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 49 of 53

PageID #: 1544

110a

.~

)

vermont~ ,. Cokhester~.4VO ,. FuMImI(lJalHelrchfw.cDIcIIest,~)

>Pa~~I~) "RRII(IJo~+vtIq....al1)
> ItJIiIltPnltedlon$peCllllst~,+vtIq ."""otec:tIoI~ > ShIWS(IJ.....~.~

OVlI'WDCher)llbsln ..... ~

tr s.wJob~iI87dIbII~.,.1~S7~
• Send tDttend ~

.

.,

&Prtnt*"....Ir.erIjDbslljolMletI1Is...,nt.IIlpIClJ»OStIiillkl'046S3'1638)

Shaws Asset Protealon Specialist - Shaws - Colchester, VT job In Colchester, VT

....

~

Shlwl'(IcDm~'ftIoo24U59 ....JtIdIakh~

ASIItPratwctlon 5peda11st· 5hIw'I. eor.ctaesW, Vf

-Type
Mdme. Plrt4lme

LDc!HIoe
66 MOUNTAIN VEIN
COIcIIiSter.vr~,""054iiI6

[_ApPOCN~(IJ~ke!~~·~~~~.1~»lI~'l~_ _-~l
-

'.'

-

'--"'--- -. . -

" -"-

'-

.

_ .

'

- --

------ -.

ASset Protection Speclallst ~ Shaw's ~ Colchester, vr

............................
'nteSptddstihdbemllnlJ ........ ,.. ...

cIIadIan_ ..........,ofshopliftm • •,..IMlFurdllr, .......... be ................lnahr

... ofShllW's,..Prcacaon,....,........ lIIUtnot ........ c.av(CIoHdClrait~usqI. .........ShIw'sIStIrMarillt. . . . . .1iI
~~ ..._Wllhaare ..... bftandIoalPo.~_c:ornpIetII .. ~IUdIis_~·byaplnllfonll.....
........ 'n.II........ Aa:..-m' tr*o:
• ..... Cerb'oI

.Qbnms~. ~."'"

• AppnIhIridsIhoJ»lftersIn ftClClldiII~ wIIb __ .,..IOtaI·I_. . c:an.,tnYJIQIIty.

• ~'nIl~_tnhdI . . . . .

• CCICIpII __ -'and nspondslft requestsbypalka . . . .,. . . CIOId.nd ..... pubk ...... undItthedlre.r:llclnoflollPNMICIonIftdfor
CGqMnteCoundl.
.
~ M.fntilni.1he ~""1D IoaptMntlDn.nd ~secw1Ir(.... theCCIVequIprnW, which Is IocmId V\the~tnd1tlfoultlDut1he
___ equlpmenCloc." aUhe~_chlc,k" andthtstDntlJn.lMlon .lIimsyitMO.
• COfIduta eIbmIIandVtnclclr~._ dbc:IIanaf1he5ecUrlly SUpIMIor.
duUies.*s . . . . by Ihe SecurltfSUptrtMlt•

....

.....,•PIIrforItIi'
..,.."

• Rlpal:lsd·....,. candlCIonstD. . . DIiiii . . . . . . . . . . . . . . Sac:!uItIr~IIIit __ IIIImId... NDiIdIaIlC!IanwtlenMr ............. arFood

·

WeIr.... II.".....

c-Icatloft wtTNI_
~...,~on

..

.
liIIS ......iI:Iun _ _

• ~.nd~ . .~...., ...

JOlt ..........
• MUltbe20,..sar. .
• .......... MIih~ Mluc:rllanar~CIiIIIep"''''''''
• _ _ to reid. u~.nd .ndhlttrpret·. . . ..,·lIbe1slftd . . CDdas.
• Mli\y1Dfttllaw_and_~
• AlII"" ptrfoI1n simple machIinItlaICIka........... M5dft1an,UiIriiIdon, ndlp'adOh. aiId cIMsIon In orcIIrtD _ _ 1IIbniIt.,lL 369
fUlMttIIlIstblditatohllMllon .........,oMca ........

commw.....

Exhibit E to Melia Aff.

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 50 of 53

PageID #: 1545

111a
• AlllIIlJ1D coopeJ'ItI and wade. a plltof. tNrn.
• AbIIftat1D learn. understalnd Ind" the Information COntained In company rillnUlls.loss preIIIIIIon policies
and pnctkes and ~ thlm 1D store
.

.,....

_.occur.

AbIIty~ handle CIIInfnIl'ItIIIonIlsftulltlons" rapand .-CD IndcIInls
,. Must p.-.sbaskClOft1llller -"'lis necessll)'tosend MId reaM emds. thIIr~ all\leeIS CDIIIpI.Dr....,.....,arts.
• NIIhl" weetcend wartt Is

•

---.,

,..na.

,."...1IiWInIiIIMfIt:
• Molt wart QIIIducqd In I normal .....' SIdfni ca_nlna- sa. floor. dIpIrtmeIltai shops,ofIket.lINI bIWaoms.

,. ....thlquemMidnc andlfMdln8.

• ~ be requh:ttDwoR DU\doors.mtn ClOnd~'" Internal or _ I SUMlIIance.

• May be exposed m.... dust/end or alrbanle.,.udesandlm\lelSspiC:Urea.
• May be ~Wed CD travel betMtn sIDre Iocdons.

mcallcMsDIIIrmetICSftltRlldetJ.cfesotberhe""" _ _ O/.M!ltPflfOtmed"'.~"'fD,,*/Ob.AII"""mcatCIIIIIW"" Company

paIIq-GIJ'f'fIaII*IaIlIs. me ~ duIJa 1IItfI.sIIIs requftd tf,.,.""t. dtasI/fIdllKlVRqllllNlah dfparrmIIltf1lllllorlDc:aMJn
EOE

Additional Info

job I"dustrfes
·1eDR~lI)

Company overvtew
ShaWl
r·· ..·· ... - ..... .t

- .~

.. --....

...

-~

~ ----~-

. , - _ .._ ._.

- --

-

....-

"--" ,

...

ApplyNow(ljob-seeker/appIyJappIy...,oposdngid-a31&381detaltd-3acll'2.bac-b7S&-1ef3.ecb8-a62e57d9d7f3) :
_...

._

__

_

_

___

., _ _..J

.arowse-sfml'- Jobs
·~Jabs~.~
.~Jabs~.~
.SRsJobl~~
,. SicU't1(v""~.ofIJt/q.HCUrtI;V)

• Sea.Idt¥_fI1ob~.~

• WofkOUlililJl,/alls~..~
• WeilGlndJllbs(lJallIllJ"Ch.~f¥ttq we_ncQ

Sicn QP for Job Ilert amaUs
w.1I_
.. raar....SlAWtttll;aar ......

! Email Address

PL370

Exhibit E to Melia Aff.

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 51 of 53

PageID #: 1546

112a

Loss Prevention Specialist
MBford, MA • Full-time

Company Descrtptlon
Shaw's and Stat Market Is working to become the favorite food and drug retailer In every state It operates and 1$ a
proud member of the Albertson's family of stores. Shav/s Is one of the oIdeat continuously operated Bupennarkats
in the Urilted S~ with its roots dating to 1860. Throug~ut1We New England &tates. there ant 156 store
locations employing approximately 18.000 associates. For more Information about Shaw's~ please visit

www.shaws.com or connect with U8 on Facebook at hltp:/lwww.facebook.comIShaws.

Job Description
GENERAL-PURPOSe-OF'POSITION:
The Specialist shall be mainly responsible for the detection and apprahenaion of shopllftels at store level. Further.
sheJhe shall be ~nslble ~ ~ng i1 other _
of ShaWs·Loas PreventiOn pI'Ogl'Bll1$ to include but not
Umlted to: CCTV (Closed Circuit 18IevIsion) usage. repreaenting Shaw'slStar Market as a wiIness In coUrt
procaed1ngs. interacting with Store Management and local Police Departments and completing ato~ndor .....
as i'aqulted by operational needS.

Job

ReaponslbllltJ

and Accountabilities:

.- Shrink Control
• Observes customers throughout the store.

• Apprehends shoplifiers In accordance with state and Iocat laws . . COI11J8I1Y poRcy.
• Develop and communicate -ORC trends & activity.
• Cooperates ~ -and responds to reques1s by police departments. courts and other pubic agencies under the
dii'8Qtlon of lO8$ Prev4tntlon and/<H' Cc)tj)or$ CoUncil.

• MaIntaIns the equipment related to loss preVention and phystcal securtty (e.g. the CClV equipment. v./hlch Is
Iocat8d In the cetfingS ..~ thrQUghout th$ store, eqUipment Jocateci .. theentiylexHs and check .-nda, and the
store's IntrusIOn alarm system).

• Conducts External and VendOr Investiptions at the direction of the Security Supervisor.
PL371

• Performs other duties as assigned by the Security Supervisor. Safety & Food Safety

Exhibit E to Melia Aff.

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 52 of 53

PageID #: 1547

113a
• Reports 811 unsafe conditions to store management and the Security Supervisor and take$. irrimediate remedial
action whenever an eminent safety or Food safety hazard is present. Communication and Training
• Communicates with Management on aD loss prevention issues.

• Completes and communicates dally acUvIly log .

.Quallflcatlans
Job Requirements

• Muat be 20 yeara of age.
e

Must have·a Hlgh.schoGJ education-or-equlValent,-coHege-degree-preferred.

• Ab111ty tQ read. understand and InIarpret SIQn8. shelf labels and date codes.
• Ability to follow written and oral h1struction.
• Ability to ."rronn s l . mathematical C81cu~ such 88 addition, subtraction, multiplication. and division in
order to compile, sUbmit, and communicate routine statistical data to the DIvIIton Loss Prevention office as
required.
• AbUlty to cooperate and work a8 a part Of a team.
• AbI1Ily to team. understand and apply Ute Information contained in company manuals, loss prevention policies
and PI'lCtll-. and apply them to store operabs.

• AblRty to handle confrontational situations and respond quickly to Incidents as they occur.
• Must poasass baSIc computer skills necessary to send and receive emaUs, their attachmems, and acCess
computer generated reports.
• Night and weekend work larequlred.

PHYSICAL ENVIRONMENY=
• Most wortc conducted In a normal rebidl setting containing a sales floor, departrnentaI8~, offices, and PL 372

backrooms.

Exhibit E to Melia Aff.

Case 2:17-cv-00259-DBH Document 84-17 Filed 02/04/19 Page 53 of 53

PageID #: 1548

114a
• Requires frequent walking and standing.
• May be required to work outdoors when conducting an intemaJ or external surveillance.

• May be exposed to heights, dust/and or airborne particles and linited space areas.
• May be required to travel between store locations.

The above statements 818 Intended to deacrtbe the general natu1'8 Of the wurlc perfoni1ed by the employees
assigned tD this job. All employees must comply with Company policy and applicable laws. The responslbRltlaa.
dut/e8 and _'-niqUired of personnel so claS$ilfed may V8IY with", eaCh department and/or location.
SHAWS SUPERMARKErS, INC. IS AN eQUAL OPPORTUNITY EMPLOYER

AddItIonal lnformdon
Please apply onlne at www.shawa.com and email resumetokaryn.wa1Ia@ahawa.com

Poetedby

KarynWatls

PL373

Exhibit E to Melia Aff.

